<html>
<title> - SHOULD CONGRESS EXTEND THE OCTOBER 2004 STATUTORY DEADLINE FOR REQUIRING FOREIGN VISITORS TO PRESENT BIOMETRIC PASSPORTS?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
    SHOULD CONGRESS EXTEND THE OCTOBER 2004 STATUTORY DEADLINE FOR 
       REQUIRING FOREIGN VISITORS TO PRESENT BIOMETRIC PASSPORTS?

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 21, 2004

                               __________

                             Serial No. 111

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary

                                 ______

93-226 PDF                 Washington : 2004

____________________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel

                            C O N T E N T S

                              ----------                              

                             APRIL 21, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress From the State of Wisconsin, and Chairman, Committee 
  on the Judiciary...............................................     1
The Honorable John Conyers, Jr., a Representative in Congress 
  From the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                               WITNESSES

The Honorable Colin Powell, Secretary of State
  Oral Testimony.................................................     7
  Prepared Statement.............................................    14
The Honorable Tom Ridge, Secretary of Homeland Security
  Oral Testimony.................................................    17
  Prepared Statement.............................................    20

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sam Farr, a Representative in 
  Congress from the State of California, and the Honorable Mark 
  Foley, a Representative in Congress from the State of Florida..    51
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............    52
Prepared Statement of the Honorable Elton Gallegly, a 
  Representative in Congress From the State of California........    52
Prepared Statement of the Honorable Steve King, a Representative 
  in Congress From the State of Iowa.............................    53
Prepared Statement of the Chamber of Commerce of the United 
  States.........................................................    54
Prepared Statement of the Travel Business RoundTable.............    58
Prepared Statement of J. Clark Robinson, President, International 
  Association of Amusement Parks and Attractions.................    61
Prepared Statement of the Chamber of Commerce in Singapore.......    62
Letter from the National Business Travel Association.............    65
Letter from the Travel Industry Association of America...........    66
Responses from 21 Ambassadors....................................    67
Letter from Jonathan Faull, European Commission, to Phil G. Kiko, 
  Chief of Staff-General Counsel, Committee on the Judiciary.....   114
Response to Questions posed during the hearing from the Honorable 
  Colin Powell, Secretary of State...............................   116
Responses to Post-Hearing Questions from the Honorable Colin 
  Powell, Secretary of State.....................................   121
Responses to Post-Hearing Questions from the Honorable Tom Ridge, 
  Secretary of Homeland Security.................................   143


    SHOULD CONGRESS EXTEND THE OCTOBER 2004 STATUTORY DEADLINE FOR 
       REQUIRING FOREIGN VISITORS TO PRESENT BIOMETRIC PASSPORTS?

                              ----------                              


                       WEDNESDAY, APRIL 21, 2004

                  House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10 a.m., in Room 
2141 Rayburn House Office Building, Hon. F. James 
Sensenbrenner, Jr. (Chairman of the Committee) presiding.
    Chairman Sensenbrenner. The Committee will be in order.
    Mr. Conyers and I will give opening statements. Secretary 
Powell is caught in traffic somewhere between the White House 
and here, but with Secretary Ridge's permission, we decided to 
get going.
    Mr. Conyers and I will make opening statements.
    Without objection, other Members' opening statements will 
be included in the record.
    And both secretaries will testify for about 10 minutes, and 
then we will have questions under the 5-minute rule.
    I will repeat this after the testimony is concluded. But 
both secretaries have to leave at noon. I am keeping track of 
who appears in what order, and people will be recognized 
alternatively on each side under the 5-minute rule. And when we 
get to noon, wherever we are--we hope we thank you very much 
for saying what you are going to say and everybody can be on 
their way.
    Today, we meet to discuss the October 2004 deadline for 
countries participating in the Visa Waiver Program to certify 
they can issue machine-readable passports that are tamper-
resistant and incorporate biometric identifiers.
    The Visa Waiver Program allows travelers from certain 
designated countries to come to the United States as temporary 
visitors without having to obtain a non-immigrant visa. There 
are currently 27 countries participating. And in fiscal year 
2002, 13 million foreign visitors entered the United States 
under the program.
    Since its creation in 1986, the program has greatly 
facilitated travel to the United States from foreign program 
countries. Through reciprocal arrangements, the program also 
benefits American international travelers.
    The Visa Waiver Program was established on the premise that 
nationals from participating countries pose little security 
risk or threat of overstaying their period of admittance. This 
premise may have been true in years past but is questionable 
today. For example, in February of this year, thousands of 
blank French passports were stolen from a delivery truck, the 
third such theft in less than a year. Spain is a Visa Waiver 
Program country, and it appears that most of the terrorists who 
carried out the Madrid bombings were Spanish citizens or legal 
immigrants entitled to passports which they could have used to 
travel to the United States under the Visa Waiver Program.
    In part to address threats like this, I authored the 
``Enhanced Visa Security and Visa Entry Reform Act of 2002.'' 
The act requires that, by no later than October 26, 2004, 
governments of Visa Waiver Program countries must certify they 
have programs to issue to their nationals machine-readable 
passports that are tamper-resistant and that incorporate 
biometric identifiers that comply with the biometric identifier 
standards established by the International Civil Aviation 
Organization.
    On or after this date, any alien applying for admission 
under the program must present a passport that meets these 
standards unless the passport was issued prior to that date.
    This requirement is aimed at closing existing security 
loopholes. First, it will allow DHS inspectors at ports-of-
entry to determine whether a passport properly identifies its 
bearer. This will combat terrorist imposters and prevent them 
from defeating lookout lists on which they are posted. Second, 
it will make passports much harder to alter or counterfeit. 
Third, in conjunction with the installation of scanners at 
ports-of-entry to read the passports, the DHS can track the 
arrival and departure of travelers and identify those who 
overstay their visas.
    My goal in selecting the October 2004 deadline was to push 
countries to act promptly to modernize their passports. I have 
contacted the foreign governments participating in the Visa 
Waiver Program and asked whether they will meet the October 
deadline. It appears that for most Visa Waiver countries, the 
deadline is unreachable.
    Fortunately, the impending deadline has led to results by 
at least a few countries in progress and several others. 
Belgium had one of the weakest passport regimes in Europe, but 
has now so completely revised its approach that it will be 
among the first countries to meet the new biometric 
requirements. Belgium has also improved its physical security 
of blank passports so that not one has been stolen since 1999.
    Hopefully, France will follow its neighbor and take steps 
to stop the continuing theft of blank French passports.
    The Administration has written to me to say that there are 
interoperability issues, privacy issues, chip durability 
concerns as well as production and procurement delays and has 
asked for legislation to extend the biometric passport deadline 
for 2 years.
    At the same time, the Administration has initiated security 
procedures that will limit the risk of extending the deadlines. 
Specifically, the Department of Homeland Security has announced 
that it will begin fingerprinting each traveler from the Visa 
Waiver Program countries in September of this year. This 
abbreviated inspection process for Visa Waiver travelers will 
be greatly strengthened with the incorporation of US-VISIT 
especially until such time as all countries participating in 
the Visa Waiver Program are issuing their citizens passports 
with biometric identifiers.
    To date, US-VISIT has been an outstanding success, taking 
half a minute or less to capture biometric identification while 
the conventional interview takes place. Under the program, 
arriving aliens from overseas have two fingerprints and a 
photograph digitally recorded with little inconvenience added. 
This data is used to verify the identity of the visitor and is 
compared against criminal and terrorist watch lists.
    I called today's hearing so that the Committee may hear 
from Secretaries Powell and Ridge on both their efforts over 
the past 2 years to encourage Visa Waiver Program countries to 
meet the statutory requirements and also on their assessment of 
the ability of countries to meet the deadline. This will 
provide valuable information for the Committee to evaluate the 
Administration's request that we extend the deadline for a 
period of 2 years.
    The gentleman from Michigan?
    Mr. Conyers. Thank you, Mr. Chairman.
    And good morning to our distinguished witnesses.
    It is not often that any Committee gets two Cabinet Members 
at the same time in one morning, and we are honored by your 
presence.
    First of all, I would like to make it clear that this 
biometric means of identifying a person by biological features 
unique to each individual uses advanced computerized 
recognition techniques that make rapid comparison possible and 
is almost a total proof contained method of identification.
    It started--it is in some use already, and I think everyone 
is quite satisfied with it. So we come here this morning with 
the understanding that we want these biometric measurement 
techniques instituted at our earliest convenience.
    The question is, is there sufficient reason for us to re-
examine the time limit that has been imposed?
    And I would like permission, Mr. Chairman, to put in the 
record the article by the Secretary of State that appeared in 
the Wall Street Journal just today.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Sensenbrenner. Without objection.
    Mr. Conyers. Thank you.
    And of course, we are always happy to welcome a former 
colleague in the Congress back to the House, and we are always 
happy to see him. We gave you one of our best on the Committee 
to make him your deputy, and I trust that he is doing a good 
job. I testified for him. He'd better be.
    And what we want to examine, is there sufficient reason to 
extend the deadline for biometric passports past the current 
October 2004 deadline? And it seems to me that this, the answer 
to this question, involves a few considerations that I would 
like to enumerate as this discussion before the Committee goes 
on today.
    The first one that I raise is whether we have sufficiently 
considered the global privacy issues of creating government 
controlled and shared databases with biometric data, which will 
soon number millions and millions of travelers.
    Secondly, if we are too hasty and if we do legitimately 
need additional time, won't this make us more secure rather 
than rushing to meet a deadline that was established in good 
faith by all the parties without question? But there are 
circumstances which perhaps you might want to expand on that 
requires us to make this modification that is before us.
    And then I am asking myself, how can we demand other 
nations to move forward with this brand new technology when it 
is not clear that we are ready for it ourselves?
    And if we do not extend the deadline, the question arises, 
what will be the consequences for our allies, our friendly 
nations abroad and our own tourist industry itself. Clearly, 
making millions of individuals and Visa Waiver nations wait in 
line for visas with approximately 6 million other people in the 
backlog does not seem to be a desirable result from, I think, 
all of our points of view.
    Now, our backs are against the wall. We are facing a 
deadline. We are in a highly active part of the year, to put it 
mildly. I am not sure if the State Department or the Department 
of Homeland Security has to be nailed up against the wall or to 
be held responsible, because I think that the reasons for this 
can be found in the congressional approach that we made.
    And when the House passed this bill, setting the deadline, 
incidentally, 3 years ago, during the limited debate, a central 
issue with this deadline was whether it was reasonable, but we 
went along with it.
    I am not sure if anything terrible would happen in the 
global scheme of things if we were to take this second 
examination of the time and be guided by the Wall Street 
Journal publication in which the Secretary of State was quoted, 
``Some argue that we should raise the drawbridge and not allow 
any more foreign visitors. They are wrong. Such a move would 
hand a victory to the terrorists by having us betray our 
cherished principles. Openness is fundamental to our success as 
a Nation, economically, culturally and politically.''
    And with that, Mr. Chairman, I look forward to the 
testimony of our distinguished witnesses.
    Chairman Sensenbrenner. Without objection, all Members' 
opening statements will be placed in the record at this point.
    Messrs. Secretaries, would you please rise and take the 
oath?
    [Witnesses sworn.]
    Chairman Sensenbrenner. Let the record state that both 
witnesses answered in the affirmative.
    Our first witness is Secretary Colin Powell. Secretary 
Powell became the 65th Secretary of State on January 20, 2001. 
Prior to his appointment, he was the chairman of America's 
Promise, The Alliance For Youth, the national nonprofit 
organization dedicated to mobilizing people to build the 
character and confidence of young people.
    During his distinguished career, Secretary Powell served as 
a professional soldier for 35 years, during which time he had 
many command and staff positions and rose to the rank of 4-star 
general. His last assignment from October 1, 1989, to September 
30, 1993 was as Chairman of the Joint Chiefs of Staff, the 
highest military position in the Department of Defense.
    He is the recipient of numerous U.S. and foreign military 
awards and decorations as well as two presidential Medals of 
Freedom, the President's Citizen Medal and the Congressional 
Gold Medal.
    He holds a bachelor's degree from the City College of New 
York and an MBA degree from George Washington University.
    The second witness is Secretary of Homeland Security Tom 
Ridge. He was appointed as the first Secretary of the 
Department of Homeland Security on January 24, 2003. Prior to 
his appointment as secretary, he served as the Bush 
administration's first director of the Office of Homeland 
Security, which was created in response to the tragic events of 
September 11.
    Preceding Secretary Ridge's position with the Bush 
administration, he boasts a long history of public service to 
the people of the great Commonwealth of Pennsylvania. He was 
first elected to Congress in 1982 and was overwhelmingly re-
elected five times.
    He then decided there were better things to do than being a 
Congressman and was twice elected as Governor of Pennsylvania, 
serving from 1995 to 2001.
    He is a decorated Vietnam Veteran, earning the Bronze Star 
for Valor. He holds a degree from Harvard where he graduated 
with honors and a law degree from the Dickinson School of Law.
    Each of the Secretaries has asked for 10 minutes.
    Secretary Powell, you are first.

           TESTIMONY OF THE HONORABLE COLIN POWELL, 
                       SECRETARY OF STATE

    Secretary Powell. Thank you very much, Mr. Chairman and I 
would like to thank you for calling this hearing. It is a very 
important hearing and I am pleased to be here with my fellow 
Cabinet officer and fellow infantryman Tom Ridge.
    Mr. Conyers, I also thank you for your kind remarks 
concerning my article this morning. I had to notice a slight 
smile on your face when we have two Cabinet officers here this 
morning, which is rare. It almost reminded me of my former 
occupation, something we would call a target-rich environment.
    Mr. Chairman, Members of the Committee, Mr. Conyers, thank 
you for the opportunity for us to testify on the progress of 
those countries participating in our Visa Waiver Program toward 
producing passports with embedded biometrics by October 26, 
2004.
    I am here with Secretary Ridge to explain the 
Administration's request for an extension of this deadline. 
Moreover, I want to report on the Department of State's 
progress in implementing our own biometric programs for U.S. 
Passports and visas.
    President Bush's number one priority is the security of our 
homeland. Secretary Ridge and I share that commitment. 
Secretary Ridge is responsible for our visa policy, and I am 
responsible to Secretary Ridge and to the President for its 
implementation.
    The inclusion of biometrics in international travel 
documents is a critical step in upgrading security for America 
and in protecting travelers coming to our country. It is 
imperative that we improve our ability to verify the identities 
of prospective travelers, especially individuals who might be 
terrorists, criminals or who otherwise present a security risk 
to our Nation and to our people.
    The ``Enhanced Border Security and Visa Entry Reform Act'' 
established October 26, 2004, as a deadline. By that date, Visa 
Waiver Program countries must begin issuing their nationals 
only passports that incorporate biometric identifiers that 
comply with ICAO standards.
    Also, by that date, a separate requirement by that same 
date, all Visa Waiver passport travelers must enter the United 
States with a machine-readable passport.
    In May 2003, less than a year ago, ICAO decided to make 
facial recognition technology the standard passports biometric, 
leaving Visa Waiver Program countries only 17 months, from May 
2003 to October of 2004, to bring biometric passport from 
design to production and prepare for those passports to be 
issued. Such a process doesn't take 17 months. It usually takes 
a number of years to get it right.
    The Border Security Act does not provide a waiver 
provision. And very few, if any, of the 27 participating VWP 
programs or countries will be able to meet this legislatively 
mandated deadline. Although the governments of the VWP 
countries share a commitment to this step forward--they all 
agree with it, they all want to be part of it, they all want to 
do it but many of them are encountering the same challenges 
that we face in our own effort to embed biometrics in the U.S. 
passport.
    The challenge provided to the international community by 
the October 26 deadline is a daunting one. We are confronted by 
complex technological issues. Among these are the security of 
the passport data, the interoperability of readers and 
passports, and the reliability of the chips that would be 
embedded in the passports. Will they last for the life of the 
passports, which in most cases is 10 years? Will the chip last 
10 years? We have to validate all of these sorts of issues and 
considerations.
    We and our VWP partners are steadily resolving these 
issues, but then studying them and achieving success in dealing 
with them takes time. Moreover, we want to get the science as 
right as possible before we spend dollars, implement and depend 
on these new measures to defend our security.
    This concern for taking the necessary time to get things 
right has not kept us from working aggressively with the VWP 
countries. In fact, we have not only urged them to meet the 
deadline, we've led the way in our international effort to 
provide better security for our citizens. At every opportunity 
around the world, State Department officials seek to educate 
government representatives of the VWP countries and their 
journalists and other informed citizens about the requirements 
and about the deadlines. In addition, VWP countries have sent 
representatives to Washington, and we have had full and open 
discussions on the issues.
    As a result, VWP countries are making progress toward 
complying with the biometric requirement, but I doubt whether 
any will meet the October 26 deadline. None of the larger 
countries, for example, Japan, the United Kingdom, France, 
Germany, Ireland, Italy or Spain, will begin issuing passports 
with biometrics by that deadline. Japan and the United Kingdom 
say they will begin in late 2005. Others may not begin to come 
online until well into 2006.
    Under these circumstances, we believe there are compelling 
reasons to extend the October 2004 deadline to November 30, 
2006. This extension would enable our allies to resolve the 
scientific problems and to develop more secure biometrically 
enabled documents that the original legislation mandated.
    Equally important, by providing this additional time, we 
can be confident that the solutions developed by our partners 
in the VWP program will work effectively and be interoperable 
with similar systems installed throughout the world. It is in 
our interest to ensure global interoperability as Mr. Conyers 
noted, to enhance not just our own border security, but the 
security of our citizens overseas and of other citizens 
traveling worldwide.
    Rushing a solution to meet the current deadline virtually 
guarantees that we will have systems that are not 
interoperable. Such a result may undercut international 
acceptance of this new technology as well as compound rather 
than ease our overall challenge.
    Failure to extend the deadline will have other serious 
consequences as well. Travelers from VWP countries with 
passports issued on or after October 26, 2004, without 
biometrics will need visas at that time. To travel to the 
United States, we estimate that the demand for non-immigrant 
visas will jump by over 5 million applicants in fiscal year 
2005. This would represent a 70 percent increase in our non-
immigrant visa work load.
    There are no easy solutions to handling this tremendous 
increase in our work load. True, it is a temporary problem 
because the work load will progressively go down as VWP 
countries begin mass production of biometric passports. But in 
the interim, we would need to implement plans for a massive 
surge in visa processing, which would involve huge extra 
expense, diversion of personnel from other vital functions and 
extending service hours, perhaps even to around-the-clock, 24/7 
visa processing at some of our posts.
    Even with the Manhattan Project approach, we cannot be sure 
that we could meet the demand without creating backlogs and 
creating long waits for appointments. We are already working 
hard on public diplomacy outreach to address some of the 
negative perceptions and misunderstandings concerning tightened 
U.S. visa policies. Even longer wait times would make it doubly 
difficult to convince people worldwide, particularly young 
people, that America welcomes them, that we want them here to 
go to our schools and universities, to go to our museums, to 
visit Disneyland, to come and learn our language, to go to our 
hospital facilities.
    The delays resulting from this increased non-immigrant visa 
demand will also discourage travel to the United States as 
visitors vote with their feet and choose to go elsewhere, to 
travel elsewhere, to be educated elsewhere, to get their 
healthcare elsewhere.
    Both Secretary Ridge and I are getting letters from 
university presidents all around the country. I will offer a 
letter that I received yesterday from the President of Harvard 
University describing the impact these delays are having on our 
educational facilities now. And we really don't want to do 
things that would complicate that.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Secretary Powell. In fact, we judge that added economic 
costs will be substantial. VWP travelers, who tend to spend 
more than other visitors, contribute billions of dollars to our 
economy each year. One out of eight jobs in the U.S. civilian 
labor force is employed in some segment of the travel and 
tourism industry. We want to avoid unnecessary harm to this 
vital industry as well as other vital industries that depend on 
travelers.
    I want to be clear that extending the deadline is only part 
of the answer. We will also continue to pursue vigorous 
diplomatic efforts at the highest levels to ensure that the VWP 
countries remain committed to introducing biometric passports.
    Over the next few months, the Department of State will 
participate in the VWP country reviews led by Secretary Ridge's 
Homeland Security Department. And we will take every 
opportunity to remind governments of the importance of meeting 
the new deadline should it be extended. We will ensure that 
they all understand that if they fail to meet the extended 
deadline, we will have no alternative but to begin requiring 
visas for travelers in those countries.
    Further, to continue to tighten our security posture, the 
Department of Homeland Security will enroll the VWP travelers 
in US-VISIT, the program that tracks the entry and exit of 
foreign visitors by using electronically scanned fingerprints 
and photographs. And I know that Secretary Ridge will describe 
this program in greater detail.
    Before closing, Mr. Chairman, let me give you just a few 
details with respect to our own efforts to introduce biometrics 
into our passport system. Our plan is to embed electronic chips 
on which we will write the bearer's biographic information and 
photograph. In December of this year, the program should 
produce the first biometric U.S. passports using ICAO's 
standard of facial recognition. Under this program, we would 
complete the transition to the biometric passport by the end of 
2005.
    It is important to note that we are encountering the same 
challenges as the VWP countries are in developing our own 
biometric passport, and we will be unable to meet the deadline 
that we are trying to impose on other nations.
    That said, we are making good progress. We began deployment 
of the biometric visa program on September 22, 2003, at five 
pilot posts. The program is now spreading across the entire 
State Department system. Under the biometric visa program, 
consular officers electronically scan the fingerprints of the 
visa applications at the visa interview windows. These 
fingerprints are checked electronically against the DHS 
fingerprint database. If there is no match, then the visa 
applicant's fingerprints are stored in the U.S. Visa databases. 
If the fingerprints do match any in the database, no action can 
be taken on that visa application until a consular officer 
reviews the information.
    If and when a visa is issued, the applicant's bio-data, 
photo and fingerprint data are sent to the DHS's US-VISIT 
system. And when the visa applicant arrives at the port-of-
entry, the DHS officer will use the fingerprint data to match 
the visa to the U.S. visa databases and will compare the visa 
holder's fingerprints with those that are on file.
    This one-to-one fingerprint comparison ensures that the 
person presenting the visa at the port-of-entry is the same 
person to whom the visa was issued.
    Mr. Chairman, Members of the Committee, we are working hard 
to protect our Nation, to secure our borders. We are working 
just as hard, as I tried to note in my article earlier. And I 
say to audiences around the world, we are working just as hard 
to make sure we remain an open society and a welcoming society. 
We want people to come to the United States. We need them to 
come to the United States, not just to spend money, but to be 
part of our foreign policy effort. I want young people to come 
here and learn about America, feel that they are welcome, go 
back and take what they learn about our value system and who we 
are back to their countries.
    If we make that too hard and difficult so they go to other 
countries, we are affecting our future foreign policy options, 
our future foreign policy agenda.
    With that Mr. Chairman and Members of the Committee, I will 
close and turn it over to my colleague, Secretary Ridge.
    [The prepared statement of Secretary Powell follows:]
          Prepared Statement of the Honorable Colin L. Powell
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to testify on the progress of those countries participating 
in our Visa Waiver Program (VWP) toward producing passports with 
embedded biometrics by October 26, 2004. I am here to explain the 
Administration's request for an extension of this deadline. Moreover, I 
want to report on the Department of State's progress in implementing 
our own biometric programs for U.S. passports and visas.
    I am pleased to be here today with my friend and fellow cabinet 
officer, Secretary Tom Ridge. President Bush's number one priority is 
the security of our homeland. Secretary Ridge and I share that 
commitment. Secretary Ridge is responsible for our visa policy and I am 
responsible for its implementation.
    The inclusion of biometrics in international travel documents is a 
critical step in upgrading security for America. And in protecting 
travelers, it is imperative that we improve our ability to verify the 
identities of prospective travelers to our country, especially 
individuals who might be terrorists, criminals, or others who present a 
security risk.
    The Enhanced Border Security and Visa Entry Reform Act (EBSA) 
established October 26, 2004, as a deadline. By that date, VWP 
countries must begin issuing their nationals only passports that 
incorporate biometric identifiers that comply with the International 
Civil Aviation Organization, or ICAO, standards. Also by that date, all 
VWP travelers must enter the U.S. with a machine readable passport.
    In May 2003, ICAO decided to make facial recognition technology the 
standard passport biometric, leaving VWP countries only 17 months to 
bring a biometric passport from design to production. Such a process 
normally takes years. The EBSA does not provide a waiver provision and 
very few, if any, of the 27 participating VWP countries will be able to 
meet this legislatively-mandated deadline. Although the governments of 
the VWP countries share a commitment to this step forward, many are 
encountering the same challenges that we face in our own effort to 
introduce embedded biometrics to the U.S. passport.
    The challenge provided to the international community by section 
303 of the EBSA is a daunting one. Meeting it has taken VWP countries 
and the U.S. to the cutting edge of existing technologies. As a 
consequence we're confronted by complex technological issues. Among 
these are the security of the passport data, the interoperability of 
readers and passports, and the reliability of the chips imbedded in the 
passports--will they last for the life of the passport, for example, 
which in most cases is 10 years. We and our VWP partners are steadily 
resolving these issues, but studying them and then achieving success in 
dealing with them takes time. Moreover, we want to get the science as 
right as possible before we spend dollars, implement, and depend on 
these new measures to enhance our security.
    This concern for taking the necessary time to get things right has 
not kept us from working aggressively with the VWP countries. We've 
urged them to issue biometric passports by the October 26, 2004 
deadline. Moreover, we believe that success in this international 
effort to provide better security for our citizens requires U.S. 
leadership.
    That is why in the ICAO working groups, for example, we led in 
advocating the successful inclusion of biometrics in travel documents. 
In the G-8, we strongly advocated support for ICAO leadership in 
biometrics and we participate actively in a special working group on 
biometrics established by the G-8 ministers of Home and Justice 
Affairs. At every opportunity around the world, State Department 
officials seek to educate VWP government representatives, journalists 
and citizens from these countries about the requirements and deadlines. 
In addition, VWP countries have sent representatives to Washington and 
we have had full and open discussions on the issues.
    As a result, VWP countries are making progress toward complying 
with the biometric requirement, but I doubt whether any will meet the 
October 26 deadline. None of the larger countries--for example, Japan, 
the United Kingdom, France, Germany, Ireland, Italy or Spain--will 
begin issuing passports with standardized biometrics by that deadline. 
Japan and the United Kingdom say they will begin in late 2005. Others 
may not come on-line until well into 2006.
    Under these circumstances, we believe there are compelling reasons 
to extend the October 26, 2004 deadline to November 30, 2006. This 
extension would enable our allies to resolve the scientific problems 
and to develop the more secure, biometrically enabled documents that 
the original legislation mandated. Equally important, by providing this 
additional time we can be confident that the solutions developed by our 
partners in the VWP program will work effectively and be interoperable 
with similar systems installed throughout the world. It is in our 
interest to ensure global interoperability, to enhance not just our own 
border security but the security of our citizens overseas and of other 
citizens worldwide. Rushing a solution to meet the current deadline 
virtually guarantees that we will have systems that are not 
interoperable. Such a result may undercut international acceptance of 
this new technology as well as compound rather than ease our overall 
challenge.
    Failure to extend the deadline will have other serious consequences 
as well. Since travelers from VWP countries with passports issued on or 
after October 26, 2004 without biometrics will need visas to travel to 
the United States, we estimate that the demand for non-immigrant visas 
will jump by over 5 million applications in FY 2005. This represents a 
70% increase in our nonimmigrant visa workload. There are no easy 
solutions to handling this tremendous increase in our workload. True, 
this is a temporary problem because the workload will progressively 
decrease as VWP countries begin mass production of biometric passports. 
But in the interim, we would need to implement plans for a massive 
surge in visa processing, which would involve extra expense, diversion 
of personnel from other vital functions, and extending service hours, 
perhaps even to around-the-clock 24/7 visa processing at some posts. 
Even with a ``Manhattan Project'' approach, we cannot be sure that we 
could meet the demand without creating backlogs and long waits for 
appointments. We are already working hard on public diplomacy outreach 
to address some of the negative perceptions and misunderstandings 
concerning tightened U.S. visa policies. Even longer wait times would 
make it even more difficult to convince people worldwide, particularly 
youth, that America welcomes them and wants them here, to go to our 
schools, visit our museums and learn our language.
    The delays resulting from this increased nonimmigrant visa demand 
will also discourage travel to the U.S. as visitors ``vote with their 
feet'' and choose to travel elsewhere, or defer their travel to the 
U.S., hurting relations with some of our closest friends and allies, 
and harming the American economy.
    In fact, we judge that the added economic costs will be 
substantial. VWP travelers, who tend to spend more than other visitors, 
contribute billions of dollars to our economy each year. One out of 
every eight jobs in the U.S. civilian labor force is employed in some 
segment of the travel and tourism industry. We want to avoid 
unnecessary harm to this vital industry.
    But Mr. Chairman, I want to be clear that extending the deadline is 
only part of our answer. We will also continue to pursue vigorous 
diplomatic efforts at the highest levels to ensure that the VWP 
countries remain committed to introducing biometric passports. Over the 
next few months, the Department of State will participate in the VWP 
country reviews led by Secretary Ridge's Homeland Security Department 
and we will take every opportunity to remind governments of the 
importance of meeting the new deadline should it be extended. We will 
ensure that they all understand that if they fail to meet the extended 
deadline we will have no alternative but to begin requiring visas for 
travelers from those countries. Further, to continue to tighten our 
security posture, the Department of Homeland Security (DHS) will enroll 
all VWP travelers in US-VISIT--the program that tracks the entry and 
exit of foreign visitors by using electronically scanned fingerprints 
and photographs. Secretary Ridge will describe this program in detail 
for the committee.
    Before I close, Mr. Chairman, let me give you a few more details 
with respect to our own efforts. As I noted earlier, we believe that 
embedding biometrics in U.S. passports, to establish a clear link 
between the person issued the passport and the user, is an important 
step forward in the effort to strengthen border security. Our plan is 
to introduce ``contact-less chips'' to U.S. passports--electronic chips 
on which we will write the bearer's biographic information and 
photograph. In December of this year, the program should produce the 
first biometric U.S. passports using ICAO's standard of facial 
recognition. Further, under this program we will complete the 
transition to the biometric passport by the end of 2005. It is 
important to note that we are encountering the same challenges as the 
VWP countries in developing our own biometric passport and will be 
unable to meet the deadline mandated for them.
    That said, we are making good progress in our own biometric 
efforts. For example, we began deployment of our Biometric Visa Program 
on September 22, 2003, at five pilot posts. The program is now 
operational at more than 125 visa-adjudicating posts worldwide and will 
be operational at all visa-adjudicating posts by October 26th of this 
year, as mandated by law. This biometric program includes both non-
immigrant and immigrant visas.
    Under the Biometric Visa Program, consular officers electronically 
scan the fingerprints of the visa applicants at the visa interview 
windows as part of the visa interview process. These fingerprints are 
checked electronically against the DHS fingerprint database. If there 
is no match, then the visa applicant's fingerprints are stored in the 
US-VISIT databases. If the fingerprints do match any in the fingerprint 
database, no action can be taken on the visa application until a 
consular officer reviews the information. If and when a visa is issued, 
the applicant's bio-data, photo and fingerprint data are sent to DHS's 
US-VISIT system. When the visa applicant arrives at a port of entry, 
the DHS officer will use the fingerprint data to match the visa in the 
US-VISIT databases, and will compare the visa holder's fingerprints 
with those on file. This one-to-one fingerprint comparison ensures that 
the person presenting the visa at the port of entry is the same person 
to whom the visa was issued. To ensure the integrity of visas issued 
prior to the introduction of biometrics (currently some 20 million), we 
have also upgraded our visa datashare program for use in the initial 
inspection under US-VISIT. This means that US-VISIT has access to the 
photograph that was previously captured on most visas currently in 
circulation--providing us with a critical enhancement during primary 
inspection even though fingerprints are not available. An additional 
security measure of the Biometric Visa Program is that consular 
officers now interview all visa applicants with the exception of 
children, the elderly, and diplomats. We are working hand-in-hand with 
our colleagues in DHS to ensure that we have a system that allows 
legitimate travelers to be on their way as expeditiously as possible 
while, at the same time, it identifies those who pose a threat so we 
can prevent them from entering our country or arrest them if the 
situation warrants such action.
    As I said, ensuring the security of our borders is our number one 
priority. But protecting our democracy and the special, welcoming 
society we have always been, demands that we remain an open nation. 
America must continue to be a magnet for enterprising minds from around 
the world and the preferred destination of millions of tourists. We 
must also continue to add new richness to our unique mosaic to enhance 
our cultural diversity and further enlighten our tolerance. And we must 
continue to be that shining beacon on the hill for people around the 
world.
    Mr. Chairman, in my confirmation hearing before the Senate Foreign 
Relations Committee in January 2001, I pointed out that America is a 
country of countries, with a citizen in her ranks from every country in 
the world. I said that there is no country we do not touch and no 
country that does not touch us. For me these are not just words. I am a 
direct beneficiary of this connectedness and of our country's historic 
openness. So I believe passionately that we must deny the victory to 
terrorists that changing the very nature of our democracy would 
represent.
    But I am also a realist. I know that while we maintain our openness 
we must also enhance our security. I know too that enhancing our 
security was a principal purpose of the Border Security Act. What I am 
requesting of you today is that you and the members of your committee 
recognize that the deadline of October 26, 2004 is not only 
unrealistic, it is counterproductive. Moreover, I am requesting that we 
fix this problem by extending the deadline to November 30, 2006.
    Thank you, Mr. Chairman.

    Chairman Sensenbrenner. Thank you.
    Secretary Ridge?

             TESTIMONY OF THE HONORABLE TOM RIDGE, 
                 SECRETARY OF HOMELAND SECURITY

    Secretary Ridge. Thank you Chairman Sensenbrenner and 
Ranking Member Conyers, distinguished Members of this 
Committee.
    Let me first say, it is a great pleasure and privilege to 
appear before you, but particularly with my friend and 
colleague the Secretary of State.
    And we join together in requesting the extension of the two 
deadlines that Secretary Powell highlighted in his opening 
remarks. I think the fact that we are testifying together 
reflects in a very important way the partnership that we have 
in our mutual efforts to make sure that our doors are open and 
yet our borders are secure. It also reflects our mutual desire 
that congressional action be taken because we believe that it 
is in the long-run best interests of our country for a variety 
of reasons that it be done.
    Now, in the brief year since the Department of Homeland 
Security was created, we worked together with Secretary Powell 
and other executive branch agencies as well as the Congress of 
the United States to make sure that our country is safer and 
more secure, not just for citizens but non-citizens who travel, 
recreate, visit and go to school here. Our policies have been 
designed to keep our borders closed to terrorists, but open to 
legitimate, law-abiding visitors. They deserve to travel on 
secure airlines and vessels, to be processed efficiently 
through our ports and our border crossings and to have their 
privacy respected and protected from abuse as well.
    And once here, they, too, deserve to live in safety, not in 
fear of terrorists, criminals or fugitives from the law. That 
is the charge of our open, welcoming Nation, a champion of 
freedom both at home and abroad. And I believe the changes we 
favor will help us preserve those freedoms and protect all 
individuals from harm.
    Currently, as noted by Secretary of State, 27 nations are 
members of the Visa Waiver Program. And under the program, 
citizens of participating countries are allowed to travel to 
the United States for tourism or business for 90 days or less 
without obtaining a visa. This policy encourages travel, trade 
and student exchanges between the United States and our allies.
    However, one unintended consequence of the policy is a 
potentially significant gap in security as those wishing to 
avoid visa security checks conducted at U.S. consular posts 
abroad might attempt to take advantage of the program. One of 
the responsibilities of the Department of Homeland Security is 
to determine whether the continued participation of a 
particular nation in the VWP program possesses a threat to the 
national security or law enforcement interests of the United 
States and, therefore, should be ended. The Enhanced Border 
Security and Visa Entry Reform Act requires that beginning on 
October 26, 2004, Visa Waiver Program countries have a program 
in place to issue their nationals machine-readable passports. 
They must be tamper-resistant and incorporate biometric and 
document authentication identifiers that comply with the ICAO 
standards.
    The law also requires, as has been noted, that visitors 
coming into the United States under the VWP program present 
these new biometric and machine-readable passports if they were 
issued on or after that date. VWP travelers with non-biometric 
passports issued after October 26, 2004 will need a visa to 
enter the United States as the Secretary has pointed out.
    We have learned that while most VWP countries will be able 
to certify they have a program to issue biometric passports by 
the deadline, few if any of these countries will be able to 
produce biometric passports by that date. Under the current 
deadline, millions of visitors from these countries who do not 
have an ICAO-compliant passport will have to obtain visas. That 
is a 70 percent increase we can anticipate. There will be about 
5 million more men, women and children lining up in consular 
offices around the world--and I might add from my travels 
around the world, already consular affairs offices do a 
tremendous job with limited resources.
    So we would be imposing an additional burden on these men 
and women overseas as well. As my colleague has indicated, this 
sweeping change would place a huge burden on our consulate and 
have a significant negative impact on tourism, travel and 
commerce.
    Therefore, we agree that relief, congressional relief, is 
critical. We are encouraged by the progress that has been made 
by these VWP countries to meet the emerging ICAO standards. We 
will continue to work together with them to help them meet the 
mandatory deadlines.
    It must be noted that the reason the countries cannot meet 
the October 26 deadline is not a lack of will, nor a lack of 
commitment. I mean, both publicly and privately, our colleagues 
around the world accept the notion that biometric identifiers 
confirming identities and authenticating documents are going to 
be a part of the 21st century. By complying with the deadline 
technically is where the real problem is, not the commitment.
    For these same technical reasons, the Department of 
Homeland Security is not currently in a position to acquire and 
deploy equipment and software to compare and authenticate these 
documents as well.
    I would like to share with you a couple of thoughts about 
the US-VISIT program because what the secretary and I would 
propose to Congress, if you are willing to extend the deadline 
for 2 years, that have these Visa Waiver Program citizens come 
in and be entered as part of our US-VISIT program that has been 
a very successful program embraced by, frankly, the visitors 
from around the world who found out that it is fair, it's 
simple, it's easy and their privacy rights are protected as 
well.
    Despite challenges, we have identified an interim solution 
that we believe will allow us to improve the Nation's security 
and the integrity of the VWP program. This involves enrolling 
VWP travelers in the US-VISIT system beginning this fall. 
That's what we would offer to you. US-VISIT represents the 
greatest single advance in border technology in three decades.
    The Department has established US-VISIT to enhance the 
safety of our citizens and visitors, facilitate legitimate 
travel and trade, ensure the integrity of our immigration 
system and protect the privacy of travelers to the United 
States. US-VISIT represents a continuum of security measures 
that use biometrics as a key element. Biometrics, such as 
digital, inkless fingerscans and digital photographs, enable 
the Department to determine whether the person applying for 
entry in the United States once they get to our borders is the 
same person who was issued a visa by Secretary Powell's 
consular affairs offices and embassies around the world.
    Both State and our Department use biometric and biographic 
data to check against appropriate lookout data. The Department 
deployed the first implemented US-VISIT on time and with your 
support and on budget. And as it includes biometrics ahead of 
schedule, we have exceeded, at least for the time being, the 
mandate established by Congress.
    We would like to meet the mandate by Congress obviously. We 
use it at 115 airports and 14 seaports. And by the end of this 
year, US-VISIT will be in operation, again consistent with the 
congressional mandate, at our 50 busiest land ports-of-entry.
    You should also know, my colleagues in public service, we 
have also begun pilot biometric exit procedures at airports and 
seaports and will expand to additional pilot locations later 
this summer. US-VISIT procedures--and I need to emphasize this, 
again, not just to the domestic audience, but more importantly 
to our friends overseas--US-VISIT procedures are clear, simple, 
and fast and privacy protections are afforded our visitors.
    On the average, US-VISIT procedures take less than 15 
seconds per person during the inspection process. And as of 
April 20, more than 3 million foreign visitors have been 
processed.
    As impressive as its speed, I would say to you has been its 
thoroughness. Already US-VISIT has matched more than 300 
persons against criminal databases, preventing more than 100 
known or suspected criminals from entering the country. More 
than 200 were matched while applying for a visa at a State 
Department post overseas.
    Again, we begin the security piece of this effort in the 
consular affairs offices and our embassies overseas. They in 
fact rejected well over 100 people applying for a visa in the 
first place.
    We have a double-check system when they come into our 
country. There may be a lapse between when the visa was issued 
and the time they came into the country. So we've put an added 
layer of security by checking the same database again.
    We have extended the principles and protections of the 1974 
Privacy Act to all individuals processed through the US-VISIT 
system. There is a process for redress if an individual has a 
complaint.
    Visitors to this Nation have a right to be secure from 
criminals and predators as well. And I think the US-VISIT 
system has helped to make that right a reality. And before I 
conclude, I would like to give you a couple of quick examples.
    On December 28, 2003, an international traveler appeared 
for inspection at the Newark international airport. Standard 
biographic record checks using a name and date of birth would 
have cleared this person automatically. However, once he gave 
us the fingerscans and we checked that against our biometric 
database, it was revealed he was a convicted felon who we had 
previously deported from the United States. He had used 
multiple aliases to disguise authorities from his record of 
rape, assault, criminal possession of a weapon and the making 
of terrorist threats.
    Obviously, open door for legitimate travelers; secure 
borders for those people who need not enter our country again. 
This individual fits that model.
    Similar examples abound. A fugitive drug trafficker was 
captured after two decades on the run. A traveler sporting 
three Social Security numbers and a 14-year criminal history 
was nabbed.
    Just weeks ago, an airline crew member was biometrically 
identified as having been convicted of forgery in violation of 
electronic funds transfer accounts. Crew members from foreign 
airlines are not exempt from US-VISIT. This individual was sent 
home and the visa was canceled.
    Through US-VISIT, our two Departments have identified 
numerous criminal and immigration law violators who otherwise 
would have disappeared. Everyday the system highlights the 
importance of using accurate, timely information to protect our 
Nation from terrorists and criminals and, I would add, to 
protect innocent non-citizens and their families from being 
tarred with a broad brush or targeted by mistake. By focusing 
on individual behavior, US-VISIT and programs like it today and 
in the future help reduce our reliance on more arbitrary and 
unfair standards, such as nationality.
    In fiscal year 2003, the Department of Homeland Security 
recorded the admission of approximately 13 million Visa Waiver 
Program visits through air and our sea ports-of-entry. 
Secretary Powell has indicated to you what happens to those 
folks and the problems associated with running the visas if we 
don't extend the deadline.
    We have briefed ambassadors of these countries on the 
potential change, and overall, they are very supportive. The 
European Commission spokesperson told the Wall Street Journal, 
``We will work with the United States with whom we share 
counterterrorism goals to ensure that any new measures are 
introduced with minimum disruption and maximum safety.''
    We have been and must always be an open and welcoming 
society. And in the post-9/11 world, the balance between open 
doors and secure borders has become a lot more complex. 
Frankly, we have allies who understand the significance of our 
security measures and also see the relevance of similar 
measures being applied in their own countries. The extension of 
2 years not only gives us a chance to comply with the 
appropriate congressional mandates, but also to further engage 
our friends and colleagues around the world so that at the end 
of the day, when it comes to document verification and identity 
verification, we have one international standard, not a U.S. 
standard and another world standard, but one international 
standard.
    The Secretary and I look forward to working to achieve that 
common goal with our allies around the world.
    And again, I join with him in requesting congressional 
relief from the two deadlines and the measures we previously 
discussed.
    Thank you, Mr. Chairman and Members of the Committee.
    [The prepared statement of Secretary Ridge follows:]
             Prepared Statement of the Honorable Tom Ridge
    Chairman Sensenbrenner, Ranking Member Conyers and other 
distinguished Members, it is a pleasure to appear before you today to 
discuss our request to extend the deadlines of certain provisions of 
the Enhanced Border Security and Visa Entry Reform Act of 2002 (EBSA) 
requiring:

        <bullet>  Visa Waiver Program (VWP) countries \1\ to produce 
        International Civil Aviation Organization (ICAO) compliant, 
        biometric passports;
---------------------------------------------------------------------------
    \1\ The following 27 countries are currently in the VWP: Andorra, 
Austria, Australia, Belgium, Brunei, Denmark, Finland, France, Germany, 
Iceland, Ireland, Italy, Japan, Liechtenstein, Luxembourg, Monaco, 
Netherlands, New Zealand, Norway, Portugal, San Marino, Singapore, 
Slovenia, Spain, Sweden, Switzerland, and the United Kingdom (which 
includes citizens with the unrestricted right of permanent abode in 
England, Scotland, Wales, Northern Ireland, the Channel Islands and the 
Isle of Man).
---------------------------------------------------------------------------

        <bullet>  VWP travelers to use ICAO-compliant biometric 
        passports for admission into the United States; and

        <bullet>  DHS to install equipment and software at all Ports-
        of-Entry (POEs) to allow biometric comparison and 
        authentication of those passports.

    I will also describe how the Department of Homeland Security will 
increase the security of the Visa Waiver Program by enrolling VWP 
travelers in the US-VISIT system beginning in the fall to help DHS 
identify terrorists, criminals, and immigration violators while 
facilitating the travel of the overwhelming majority of VWP travelers.
       i. statutory requirements in enhanced border security act
    The VWP enables citizens of certain countries to travel to the 
United States for tourism or business for ninety days or less without 
obtaining a visa. While visa-less travel encourages travel and trade 
with our allies, it also makes the program attractive to those wishing 
to avoid visa security checks conducted at U.S. consulates abroad. To 
help address this security vulnerability, the EBSA shortened the 
timeframe for the mandatory reviews of countries participating in the 
VWP from 5 years to 2 years. These reviews are intended to enable us to 
determine whether the continued participation of a particular country 
in the program poses a threat to the national security or law 
enforcement interests of the United States. If the Secretary determines 
that a particular country's participation is a threat, that country can 
be removed from the program. Six of the mandatory reviews were 
completed prior to DHS' assumption of that responsibility. We are now 
in the process of reviewing the remaining countries and are committed 
to completing all the reviews by October.
    The EBSA also requires that beginning on October 26, 2004, VWP 
countries have a program in place to issue their nationals machine-
readable passports that are tamper-resistant and incorporate biometric 
and document authentication identifiers that comply with ICAO standards 
as a condition of continued participation in the VWP program. The law 
also requires that visitors coming to the United States under the VWP 
present machine-readable, tamper-resistant passports that incorporate 
biometric and document authentication identifiers, if the passport is 
issued on or after October 26, 2004. Furthermore, DHS is required to 
install equipment and software at all ports of entry to allow biometric 
comparison and authentication of these passports.
    While most VWP program countries will be able to certify that they 
have a program in place to issue biometric passports by the October 
deadline, very few, if any, VWP countries will actually be able to 
begin issuing biometric passports by that date. The result is that 
millions of visitors from VWP countries who are issued non-ICAO 
compliant passports after October 26, 2004, will be required to obtain 
visas prior to traveling to the United States. The issue is not lack of 
will or commitment to achieving the standard by these countries, but 
rather challenging scientific and technical issues.
    The ICAO selected contactless integrated-circuit chips for data 
storage, and stated that if biometrics are incorporated into the travel 
document, the mandatory biometric is the ``encoded face.'' \2\ Last 
week, ICAO published a revision to the standard to address the issue 
that, up to this point, the standard did not ensure that all chips 
produced for incorporation into passports can be read by any reader and 
any reader produced to that standard can read any chip. This standard 
will be approved in May.\3\ Both DHS and the Department of State (DOS) 
are encouraged by the progress that has been made by VWP countries to 
meet the emerging ICAO standards and will work with them to meet the 
deadlines.
---------------------------------------------------------------------------
    \2\ Machine Readable Travel Documents: Technical Report: 
Development of a Logical Data Structure--LDS for Optional Capacity 
Expansion Technologies, ICAO, April 2004. The report states: ``While 
the use of biometrics is optional for issuing authorities, if a choice 
is made to incorporate biometrics, Data Group 2, the encoded face, is 
therefore Mandatory. All other Data Elements defined for recording by 
an issuing State or organization are optional. ``
    \3\ The Machine Readable Travel Documents: Technical Report: 
Development of a Logical Data Structure--LDS for Optional Capacity 
Expansion Technologies, ICAO, April 2004, report will be approved at 
the Technical Advisory Group in Montreal, Canada in May 2004.
---------------------------------------------------------------------------
    For the same challenging technical reasons, DHS is also not 
currently in a position to acquire and deploy equipment and software to 
biometrically compare and authenticate these documents. DHS cannot 
today acquire one reader that will be able to read all chips utilized 
in the ICAO compliant biometric passports. However, we believe that by 
the fall of 2006, the technology required to implement successfully a 
security system based on the ICAO standards will be much more settled 
and allow DHS to derive the security benefits envisioned when the 
original EBSA was enacted.
    Acknowledging the current state of technology, and the potential 
for harm to our international relations with our closest allies, DHS 
and DOS are requesting that the October 26, 2004, deadline be extended 
to November 30, 2006, for those sections of the EBSA relating to the 
production of ICAO-compliant biometric passports, and deployment of 
equipment and software to read them.
    Based on the information provided to us by these countries on their 
status and their expected implementation dates, as well as DOS's own 
experience as it moves to implement this standard for U.S. Passports, 
we believe that all countries will be compliant by the November 30, 
2006, deadline.
           ii. increasing security through us-visit expansion
    While we recognize the need to extend the date for these new 
processes, we are focused on the need to continue to increase security 
at the borders. Therefore, we will expand US-VISIT procedures to 
visitors traveling under the VWP at:

        <bullet>  Air and sea POEs by September 30, 2004,

        <bullet>  The most trafficked land POEs by December 31, 2004, 
        and

        <bullet>  The remaining land POEs by December 31, 2005.\4\
---------------------------------------------------------------------------
    \4\ The Immigration and Naturalization Service Data Management 
Improvement Act (DMIA) of 2000 established a series of deadlines for 
the implementation a data system that would record arrival and 
departure information on non-United States Citizens.

    In FY 2003, DHS recorded the admission of approximately 13 million 
VWP travelers through air and sea POEs. This number includes multiple 
visits to the U.S. by a single individual. By expanding US-VISIT to 
include processing of VWP travelers, DHS will double the number of 
admissions processed through US-VISIT from its current status. As 
discussed below, we are confident that the US-VISIT infrastructure can 
continue to function quickly and accurately after the expansion. In 
addition, while the number of VWP travelers arriving at land ports of 
entry is small, the expansion rollout plan will allow for biometric 
enrollment for those travelers as well.
    DHS believes that processing visitors traveling under VWP in US-
VISIT achieves several important security objectives. These security 
objectives include:

        <bullet>  Conducting appropriate security checks: We will 
        conduct checks of VWP visitors against appropriate lookout 
        databases available to inspectors, adding additional biometric-
        based checks available through US-VISIT.

        <bullet>  Freezing identity of traveler: We will biometrically 
        enroll visitors in US-VISIT--freezing the identity of the 
        traveler and tying that identity to the travel document 
        presented.

        <bullet>  Matching traveler identity and document: We will 
        biometrically match that identity and document if a traveler 
        returns to the United States, enabling the inspector to 
        determine whether the traveler complied with the terms of his 
        or her previous admission and is using the same identity.

        <bullet>  Documenting arrival and departure: We will collect 
        automated arrival and departure information on travelers. We 
        will update their record to reflect changes in their 
        immigration status while they are in the U.S.

        <bullet>  Determining overstays: We will use collected 
        information to determine whether individuals have overstayed 
        the terms of their admission. This information will be used to 
        determine whether an individual should be apprehended or 
        whether the individual should be allowed to enter the U.S. upon 
        his or her next visit.

        <bullet>  Identifying security threats: We will use appropriate 
        security checks to determine individuals who represent a 
        security threat and act upon this information.

    We believe that the VWP countries will be supportive of this 
change. To date, response to our announcement of this change from VWP 
countries has been positive. These countries appreciate both the U.S. 
interest in increasing security, and our support for an extension to 
the ICAO compliant biometric passport requirement. Although the 
majority of travelers from VWP countries are exempt from the 
requirement to obtain a nonimmigrant visa, those who are required to 
obtain one are already successfully processed through US-VISIT. Since 
the implementation of US-VISIT through April 8, 2004, approximately 
400,000 nonimmigrant visa holders from VWP countries have been 
processed through US-VISIT.
    Many of the VWP countries themselves are actively engaged in 
developing programs like US-VISIT that allow them to collect biometrics 
through the visa issuance process and match those biometrics upon entry 
into the country. We are actively working with many of these countries 
to share information about terrorism, other security threats, and 
opportunities for improvements in immigration and border management.
    In order to expand US-VISIT to VWP travelers, DHS will have to 
implement both technical and procedural changes. In terms of technical 
changes, DHS will need to invest in additional hardware and software, 
including additional biometric matchers, database capacity, processing 
power, and backup/storage capability, that will support the additional 
volume and maintain the response times needed on biometric watch list 
checks and identity matching. DHS will also modify processing 
procedures and make other operating environment changes to accommodate 
the increase. These changes will vary in scope, depending on the volume 
of VWP travelers at that location.
            iii. us-visit implementation and success to date
    DHS has established US-VISIT to achieve the following goals:

        <bullet>  Enhance the safety of our citizens and visitors;

        <bullet>  Facilitate legitimate travel and trade;

        <bullet>  Ensure the integrity of our immigration system; and

        <bullet>  Protect the privacy of travelers to the United 
        States.

    US-VISIT is a continuum of security measures that begins before 
individuals enter the United States and continues through their arrival 
and departure from the country. Using biometrics such as digital, 
inkless fingerscans and digital photographs, DHS is able to determine 
whether the person applying for entry to the United States is the same 
person who was issued the visa by DOS. Additionally, DOS and DHS use 
biometric and biographic data to check against appropriate lookout 
data, improving DOS's ability to make visa determinations and DHS's 
ability to make admissibility decisions at entry.
    US-VISIT procedures are clear, simple, and fast for visitors.
    DHS deployed the first increment of US-VISIT on time, within 
budget, and has exceeded the mandate established by Congress as it 
includes biometrics ahead of schedule. On January 5, 2004, US-VISIT 
entry procedures were operational at 115 airports (covering 99% of air 
travelers who use visas to enter the United States) and 14 seaports. In 
addition, we began pilot testing biometric exit procedures at one 
airport and one seaport. As of April 20, more than 3 million foreign 
visitors have been processed under the US-VISIT entry procedures. On 
average, US-VISIT takes only 15 seconds during the inspection process.
    Already US-VISIT has matched over 259 persons against criminal 
databases and prevented more than 124 known or suspected criminals from 
entering the country. One hundred and fifty-eight people were matched 
while applying for a visa at a State Department post overseas.
    Our border management system impacts the security of our citizens 
and our visitors, affects billions of dollars in trade and travel and 
helps define relations with our international partners. There is a need 
to improve this system and bring it into the 21st century with a new 
integrated system of technological processes that will keep our 
country's economic and national security strong. This 21st century 
technology will provide an important step toward achieving the 
President's goal of secure U.S. borders.
    We respect our visitors' privacy and seek to enable them to pass 
through inspection quickly so they can enjoy their visit in our 
country. However, as people attempt to enter the United States, we must 
know who they are and whether they intend to do us harm. The ability of 
US-VISIT to rapidly screen applicants' biometrics and biographic 
information through watch lists and databases means we can have 
security and control without impeding legitimate travelers, and we can 
also help protect our welcomed visitors by drastically reducing the 
possibility of identity theft. Moreover, as visitors leave the country, 
we must know that they have not overstayed the terms of their 
admission.
    US-VISIT will be rolled out in increments to ensure that the 
foundation is strong and the building blocks are effective. With the 
deployment of the entry components at air and seaports, we have made a 
strong beginning. We are on track to meet the December 31, 2004, 
deadline to integrate US-VISIT procedures at the 50 busiest land border 
ports of entry.
    US-VISIT is dedicated to safeguarding the privacy of traveler 
information. US-VISIT has extended the principles and protections of 
the 1974 Privacy Act \5\ to all individuals processed through the 
program--even though the law only applies to U.S. Citizens and Lawful 
Permanent Residents. US-VISIT has implemented a privacy program that 
includes a privacy policy \6\ and a three-stage process for redress,\7\ 
if individuals have concerns about their information.
---------------------------------------------------------------------------
    \5\ The principles and protections of the Privacy Act are centered 
around notice to those who will be subject to information collection; 
notice of how the information will be used and how long it will be 
retained; and adherence to those uses.
    \6\ The US-VISIT Privacy Policy and Privacy Impact Assessment (PIA) 
can be found at: http://www.dhs.gov/dhspublic/interapp/editorial/
editorial--0333.xml
    \7\ US-VISIT has implemented a three-stage process for redress if 
an individual has a concern. If an affected individual requests a 
change or when a DHS Officer determines that an inaccuracy exists in 
the individual's record, the DHS Officer can modify the record. If an 
individual is not satisfied with this response, he or she can contact 
the US-VISIT Privacy Officer and ask for assistance. The individual can 
request a review by the DHS Privacy Officer, to address any remaining 
concerns.
---------------------------------------------------------------------------
A. Moving to a ``Virtual Border'' Solution
    The vision of US-VISIT is to deploy an end-to-end border management 
program. This comprehensive view of border management leads to a 
virtual border. It elevates the requirement to develop the best 
processes to manage data on visitors. It will provide information to 
the immigration and border management decision makers to support the 
pre-entry, entry, status management, exit and analysis processes.
    Much of the emphasis to date has focused specifically on the entry 
and exit processes at the ports of entry--the ``port-centric'' 
solution. One of the key initiatives of the US-VISIT program is to 
adjust this focus to a ``virtual border'' solution, placing equal 
emphasis on the pre-entry, entry, status management, exit, and analysis 
processes associated with this Program. The virtual border will enhance 
national security by matching the identity of visitors, facilitate 
legitimate trade and travel, and ensure the integrity of our 
immigration system by improving enforcement.
1. Pre-Entry
    For millions of visitors, entry into the United States must be 
preceded by the issuance of travel documents at a U.S. embassy or 
consulate abroad. The purpose of the pre-entry process is to determine 
eligibility for immigration status and/or visas at DOS consular offices 
worldwide or DHS Service Centers.
    The pre-entry process is a critical component of the US-VISIT 
virtual border. The consular officers gather a large amount of 
information prior to a visitor's arrival at a port. This data is now 
available to appropriate border management agencies. In turn, the US-
VISIT Program can provide additional information about the individual, 
including a history of prior entries and exits, biometrics, or prior 
immigration status information, that can be used to match identity or 
search watch lists to the consular officer or Citizenship and 
Immigration Services adjudicator who is determining a visitor's 
eligibility.
    Since the beginning of 2004, the pre-entry process includes 
analysis of the manifest supplied by the airlines for each 
international flight to determine the nonimmigrant visa holders on 
board the plane. This is done through the Advanced Passenger 
Information System (APIS). The U.S. Customs and Border Protection 
Officers analyze this information to know in advance whether a visitor 
may require additional review at inspection.
2. Entry Process
    The purpose of the entry process is to determine the admissibility 
of visitors requesting entry into the United States at air, land, or 
seaports. The entry process can begin at a primary port inspection 
booth at an air, sea, or land ports, or at a temporary inspection 
location such as a ship lounge. Visitors can also be inspected at 
certain pre-inspection locations overseas, such as Shannon Airport in 
Ireland.
    As part of the US-VISIT entry process, visitors will be required to 
provide biometric data, biographic data, and/or other documentation. 
This data is used to match identity, determine proper visa 
classification, and to query the watch list. Inspectors match identity 
of each visitor collected by DOS and determine the visitor's 
admissibility.
    All ports share similarities in the inspection processes. 
Inspectors must quickly conduct a primary inspection and determine if 
the applicant should be recommended for a more in-depth review at the 
secondary inspection point. The average primary inspection of U.S. 
citizens, lawful permanent residents, and visitors, lasts approximately 
one minute.
    Although all inspections involve certain basic tasks, there are 
marked differences between an inspection conducted at an air or sea 
port and one conducted at a land port because of the different physical 
environment and different travel patterns.
    To expedite the flow of traffic at land ports, DHS has implemented 
several programs, such as the Secure Electronic Network for Traveler's 
Rapid Inspection (SENTRI) or Dedicated Commuter Lane, and NEXUS, using 
Radio Frequency (RF) technologies to be able to preposition and collect 
information for inspection. For land borders, we are considering 
expanded use of RF technology to expedite processing of frequent border 
crossers using biographical data as part of the virtual border 
solution.
3. Status Management Includes Identifying Overstays
    Managing the status of visitors once inside the borders of the 
United States includes, but is not limited to:

        <bullet>  Ensuring that determinations relating to a visitor's 
        legal extension of stay or change of immigration status are 
        informed by previous determinations by State at visa issuance, 
        DHS when the individual was admitted, or the individual's 
        compliance on previous visits to the United States.

        <bullet>  Updating an individual's admission record to reflect 
        changes in immigration status or extensions of their period of 
        admission.

        <bullet>  Matching arrival and departure records to determine 
        if individuals have overstayed the terms of their admission.

        <bullet>  Identifying violations of terms of admission.

        <bullet>  Referring lookout or other information demonstrating 
        an individual's failure to comply with his or her immigration 
        status to agencies and organizations responsible for 
        enforcement.

    Maintaining the status of visitors while in the United States is an 
integral part of border management and ensures the integrity of the 
immigration system. One of the US-VISIT Program's primary roles in 
status management will be the overstay calculation, and exchanging 
appropriate entry and exit information with case management systems, 
especially those managed by U.S. Citizenship and Immigration Services.
4. The Exit Process Will Capture Departure Information
    Currently, our exit procedures are based upon departure information 
from passenger manifests shared with us by carriers. We match this 
information with the admission information and identify those likely to 
have overstayed the terms of their admission. Our goal is to enhance 
our ability to match arrivals and departures by using biometrics. We 
are testing this with various pilot programs, one of them being at the 
Baltimore-Washington International Airport. We plan to expand our pilot 
program to a total of 15 air and seaports over the next several months. 
We will pilot test three options and evaluate the results to identify 
the best, most efficient and effective process. These pilot programs 
will build on the current kiosk pilot and test mobile devices.
5. The Analysis of Information
    The purpose of the analysis process is to provide information that 
will aid immigration and border management officials in their decision-
making process. Currently, the Arrival/Departure Information System 
(ADIS) system is the primary data source for use in these analyses.
    One of the activities conducted in the analysis process is the 
determination of those who have overstayed the terms of their 
admission. Each week, the Immigration and Customs Enforcement (ICE) 
Compliance Enforcement Unit (CEU) receives a report of those 
individuals for whom the period of admission has expired and no 
departure record has been received. The ICE/CEU evaluates these 
records, determines whether additional information may exist that would 
indicate that the person has departed timely or is in a status that 
would result in their continued presence within the U.S., and acts on 
the remainder in a manner appropriate to the circumstances.
    A visitor's information is stored and routinely updated in ADIS. 
Information compiled in ADIS will tell the officer if an individual has 
complied with the terms of his or her admission. If the traveler's 
history illustrates immigration violations, the officer would use that 
information to inform his or her decision.
    As the US-VISIT program evolves, this process will take on an ever-
increasing level of importance. Emphasis will be placed on providing an 
increased level of information to all border management personnel 
(e.g., the consular official, the inspector, the adjudicator, and the 
investigative officer) to aid them in making critical decisions.
6. Watch Lists
    At various points in the pre-entry, entry, status management, and 
analysis processes, decision makers are supported by systems checks 
against data consolidated from law enforcement and intelligence sources 
that identify persons of interest for various violations.
    All names and fingerscans are checked against watch lists to 
identify known or suspected terrorists, criminals, and immigration 
violators. Terrorist watch list checks are coordinated through the 
Terrorist Screening Center (TSC).
B. The Success Stories of US-VISIT
    Through the US-VISIT biometric process, DHS and DOS have identified 
many individuals who are the subjects of lookout records. These 
included rapists, drug traffickers, and those who have committed 
immigration offenses or visa fraud.
    Here are details of a few examples.

        <bullet>  Interception of Drug Trafficker who escaped from 
        Prison--On January 14, 2004, at Miami International Airport, a 
        man was identified as wanted by the U.S. Marshals for escaping 
        from La Tuna Federal Correction Facility where he had been 
        serving a sentence for a conviction of dealing cocaine. The 
        individual was turned over to the U.S. Marshals.

        <bullet>  Visa Fraud Uncovered--On January 14, 2004, Customs 
        and Border Protection determined that a woman was trying to 
        enter the United States using a false name, after determining 
        that the woman was not the same individual whose visa photo 
        appeared in the database. The traveler was a woman who had been 
        arrested in April 2000 in New Orleans, convicted of passport 
        fraud, placed on 5 years probation, and prohibited from 
        entering the United States during that time. The woman was 
        removed from the United States after it was determined that she 
        did not meet the guidelines for criminal prosecution.

        <bullet>  Convicted Sexual Offender Identified--In New York 
        City, on February 19, 2004, US-VISIT identified an individual 
        who had a prior conviction for having sex with a minor in 2000, 
        was registered as a convicted sex offender, and was removed 
        from the United States in 2001 as an aggravated felon. He was 
        given an expedited removal and a 20-year ban on re-entry after 
        it was determined that he did not meet the guidelines for 
        criminal prosecution.

        <bullet>  Rape Suspect Caught--On February 22, 2004, at Miami 
        International Airport, biographic and US-VISIT biometric checks 
        alerted officers to an active warrant from New York City for 
        rape. Criminal history checks also uncovered 3 prior 
        convictions for possession or sale of marijuana in 1994 and 
        1995, as well as a 1998 rape arrest. He was turned over to 
        Miami-Dade police for extradition to New York.

    US-VISIT is critical to our national security as well as our 
economic security, and its implementation is already making a 
significant contribution to the efforts of DHS to provide a safer and 
more secure America. We recognize that we have a long way still to go. 
We will build upon the initial framework and solid foundation to ensure 
that we continue to meet our goals to enhance the security of our 
citizens and visitors while facilitating travel for the millions of 
visitors we welcome each year.
    We want to emphasize that we continue to be a welcoming nation, a 
nation that invites visitors to study, do business, and enjoy our 
country. We also owe it to our citizens and visitors to deny entry to 
persons wishing to do harm to the United States.
    We are committed to building a program that enhances the integrity 
of our immigration system by catching the few and expediting the many, 
the United States is leading the way in this new era--keeping our doors 
open and our nation secure.
                             iv. conclusion
    Countries in the VWP are our closest allies and economic partners. 
Seeking a two-year extension of the October 26, 2004 biometric deadline 
permits citizens of our allies to travel to the United States without 
undue burden or delay, while processing VWP travelers through US-VISIT 
allows DHS to achieve our security objective and facilitate the flow of 
legitimate travelers.

    Secretary Powell. We offer our prepared statements for the 
record.
    Chairman Sensenbrenner. Without objection, the prepared 
statements will be put into the record.
    Before starting the questions, let me do a couple of 
housekeeping matters first. First of all, I wrote the 
ambassadors of 27 of the Visa Waiver countries asking them--a 
number of countries--on cooperation with the U.S. Government as 
well as their ability to comply with the requirements of the 
act and the deadlines that are established. I would like to ask 
unanimous consent to include those responses in the record 
together with an attachment to my hearing memorandum that 
suggest the responses, because I think they are relevant.
    Secondly, I agree with Secretary Powell that this hearing 
is indeed a target-rich environment for those of us who sit on 
this side of the dais.
    First of all, let me ask my colleagues on the Committee to 
try to keep your questions restricted to the topic of this 
hearing. They have come prepared to answer questions on this 
topic. They haven't come prepared to answer questions on 
everything else that is in their respective portfolios. And I 
would ask the Members of the Committee to respect that and try 
to be on target with the target-rich environment that is 
presented.
    Secondly, the Chair has noted the order in which Members 
have appeared. I will do, as I have always done in past 
hearings, and that is to alternate by side in the order in 
which Members on each side have appeared.
    Questions under the 5-minute rule. We have the two 
secretaries until noon, so when we get to noon, wherever we are 
on the list, the hearing will have to be adjourned. So I will 
start out.
    Secretary Powell, I agree with you that it will be 
impossible to extend or possible for the United States and the 
other countries to meet the deadline that was established in 
the Visa and Border Security Act and that an extension is in 
order. I question, however, whether a 2-year extension will, in 
effect, take the heat off of everybody to get the job done that 
I believe all of us see the need to get done and to get done as 
quickly as possible given the ease in which certain types of 
passports can be forged and certain types of visas can be 
forged.
    That having been said, what do you plan on doing to make 
sure that we keep on making rapid progress in terms of reaching 
an international agreement on biometric identifiers and travel 
documents?
    And secondly, is not the whole issue of the extension of 
the deadline, which can be waived, insisting upon either a 
machine-readable passport or a machine-readable visa and a non-
machine-readable passport from a Visa Waiver country? Would it 
not be helpful to insist that the documents that are issued 
before the deadline is reached to be machine-readable? And I am 
talking specifically about France where we have had three 
heists of thousands of blank French passports, and Lord knows 
where they have ended up.
    Secretary Powell. We are working closely with all of our 
allies on the need to get their machine-readable biometric 
passports into being as fast as possible.
    The country that has raised the greatest concern to me is 
the United Kingdom. This has been a major problem for them 
because a large percentage of this 5 million population comes 
from Europe and especially from the United Kingdom. The U.K. is 
going to do everything they can to use the ICAO standard, which 
is facial recognition, and to get their documents moving as 
quickly as possible. I gave you some indication that most of 
them will start in 2005.
    A couple of them think they can't get started until 2006. I 
think they are seized with the problem. I don't think they are 
going to see this 2-year extension as a rationale for them to 
lay back and take it easy. They know that this has to happen. I 
can assure you that it would be very hard for any Secretary of 
State or Secretary of Homeland Security to come back up here 
and ask for another extension. Congress has made clear what 
your will is, and we have made it clear to our friends that if 
we get this extension, it must be met.
    With respect to visas and passports, if I got the gist of 
your question, I think we should phase into machine-readable, 
biometric passports and visas as quickly as possible with no 
delay.
    Chairman Sensenbrenner. If I may add a further point on 
this, Belgium probably had the worst passport regime of any 
Visa Waiver country. And last year, you refused to grant them 
an extension on the deadline on machine-readable passports, and 
Belgium has now so tightened up their process that I think they 
are going to be the best in all of Europe in terms of security 
of passports.
    On the other hand, we have seen problems with French 
passports that seem to be getting worse rather than better. And 
wouldn't it be appropriate to put the heat on the French, given 
the three thefts of thousands of passports that have occurred, 
to at least require them to have machine-readable passports at 
an earlier date so they can get on to joining the 21st century?
    Secretary Powell. It would be most reasonable to do so, and 
we will do so, because the sooner we can get onto the machine-
readable biometric passports, the sooner we will not have to 
worry about these missing or blank passports that might be out 
in the system.
    Chairman Sensenbrenner. The gentleman from Michigan, Mr. 
Conyers?
    Mr. Conyers. May I be permitted to yield to the gentleman 
from California, Mr. Berman?
    Chairman Sensenbrenner. Gentleman from California?
    Mr. Berman. Thank you very much, Mr. Conyers, for yielding 
me your time.
    And I appreciate the Chairman's admonition for us to try to 
stick to the subject, but a target-rich environment is a 
target-rich environment, and nothing I am going to ask is not 
fully within the ability of these very distinguished and 
talented witnesses to respond to.
    So I would like to first ask Secretary Powell a question. 
And by the way, I am a strong supporter of what you are 
suggesting at this hearing and support the effort that you are 
asking us to undertake here. My guess with a very energetic 
role from you, the Administration's fiscal year 2005 budget 
proposes a 9 percent increase in the 150 Account, The Foreign 
Assistance Account, to a level of $31.5 billion. The House 
Budget Resolution, which has passed the House, decimates that 
request, slashing it by 14.5 percent to below this year's 
level.
    The Senate also made a serious cut. Presumably at some 
point soon, a Conference Committee will make a report to the 
House and Senate. Everything that you have talked about in the 
context of the war on terror, the convergence of terrorism and 
radical Islamic attacks on America, the fight for the support 
of world opinion has had a two-pronged approach: One, that we 
have to act strong on fundamental security interests, and 
secondly, we have to drain the swamp. We have to do things 
about the world health epidemics. We have to have a Foreign 
Assistance Program that is geared to the efforts made by 
countries trying to improve the situation for their people, the 
Millennium Challenge Account being such an example. A very 
expansive important program on the Middle East Initiative 
dealing with the role of women, with the role of education, 
with economic development programs.
    What in heavens name--I don't hear a peep from the 
Administration about what they are doing to persuade the 
Republican leadership of both the House and Senate to knock off 
this effort to decimate what I assume by virtue of being in a 
tight budget situation was a significant increase in this 
account? What is the Administration doing to change the course 
of where we are headed, because I think it directly undermines 
what the Administration is trying to do, what the President 
himself has spoken to very passionately, what you have been 
fighting for a very long time? And I don't hear the effort that 
I hear to keep the transportation funding at a certain level or 
stop overtime regulations or other things that Congress is 
doing that are inconsistent with the Administration's 
priorities. Why isn't that going on in this case?
    Secretary Powell. Mr. Berman, it is going on in my part. I 
have been in touch with the leaders in the House and Senate 
about the consequences of such reductions, especially the 
consequences of the House reduction.
    The President generously allowed me to ask for 9 percent 
more. I could use 20 percent more. We have challenges all over 
the world. We are in the front lines on offense out there with 
respect to getting rid of the terrorists, with respect to 
drying up the swamp, and with respect to the need we have to 
protect our embassies.
    A bomb went off in Riyadh today, and none of our people are 
injured, to the best of my knowledge, but we have people out in 
dangerous circumstances. We need necessary funding to protect 
our facilities and necessary funding to work with those 
countries that are committed with us in the war against 
terrorism, necessary funding for the Millennium Challenge 
Account to give hope to people in developing nations, necessary 
funding in the HIV/AIDS account in order to deal with the 
greatest weapon of mass destruction on the face of the earth 
that kills 8,000 people everyday.
    And so I am trying to make the case, and I hope the 
Congress understands that this would be very unwise to make 
these kinds of reductions in the 150 Account. You can be sure 
that I am providing that counsel to my colleagues within the 
Administration.
    Mr. Berman. Secretary Ridge?
    Secretary Ridge. I would defer to my colleague.
    Chairman Sensenbrenner. The time from the gentleman from 
Michigan has expired.
    The gentleman from Florida, Mr. Keller?
    Mr. Keller. Thank you, Mr. Chairman.
    And also thank you to Secretary Powell and Secretary Ridge 
for being here today and for being in the arena your whole 
lives as public servants.
    I represent Orlando, Florida, which is the world's number 
one vacation destination. We have over 43 million tourists from 
everywhere. Of course, home to Disney World, Sea World, 
Universal and many other popular theme parks. This really is a 
life-and-death issue in terms of our economic vitality in 
central Florida.
    Secretary Powell, we have something in common. Your foreign 
policy experience really comes from touring the globe and 
meeting with foreign leaders. Much of mine comes from going to 
Epcot once in awhile. So our resumes are a little different, 
but we share one vision. And that is this and the one thing I 
do know, the twin goals of cracking down on terrorism and also 
promoting international tourism are not mutually exclusive 
tourism. We can do both and should do both, and it is critical 
to my community that we do.
    For example, if we have one more plane attack into a 
building, our community is devastated because nobody will fly 
anymore. On the other hand, if we do not grant this extension 
and visitors cannot come here, our community is devastated. So 
we must strike the appropriate balance.
    And after carefully reviewing your written testimony and 
analyzing this, I have come to the conclusion we have no choice 
but to grant this extension for three reasons: One, it is not 
feasible for the U.S. or the majority of the other 28 countries 
in the Visa Waiver Program to comply with this. Second, and 
most importantly, the security of our country will not be 
compromised by this 2-year extension because we will rely on 
the US-VISIT program to do a fingerprint check and check a 
terrorist watch list to stop the bad guys from entering. And 
since this program has been in place for only 3.5 months, we 
have effectively stopped over 300 criminals and suspected 
terrorists from entering the country. And third, it will 
devastate our tourism-based economy, as I said.
    Secretary Powell, as I understand it, we will be relying on 
this US-VISIT program and the machine-readable technology in 
place of the biometric chips during this temporary 2-year 
extension. Are you comfortable that our national security will 
not be compromised as a result of this proposed extension?
    Secretary Powell. I am comfortable that it will not be 
compromised. To a certain extent, through the use of US-VISIT 
with the fingerscan and the photo, we are compensating for the 
fact that we don't have machine-readable biometric passports 
from the Visa Waiver Program countries yet.
    So I think we have dealt with the significant part of the 
problems through the use of US-VISIT, and Tom may wish to talk 
to that. I think it is a good solution. And I know Orlando 
well. I used to visit there quite frequently in private life to 
give speeches, and I know the impact that restricting travel, 
or making it difficult to travel to get to Orlando, will have 
on your community and all of southern Florida.
    Mr. Keller. Thank you for that.
    Let me ask you a question. Some have suggested that using 
the fingerprint check that we do now with the US-VISIT program 
is in some ways superior to the facial recognition technology 
that will be in the biometric chips. I'd like your thoughts on 
that, Secretary Ridge. And, secondly, will we continue to use 
this US-VISIT program once the biometric chips are in place?
    Secretary Ridge. First of all, I think it's very important 
as a member of the international community, since we were 
involved in the debate and the negotiations with ICAO, the 
International Commercial Aviation Organization, that we accept 
initially the international standard and that is facial 
recognition. So we want to continue to work with that 
community, refine the technology and apply it across the board 
with our colleagues around the world.
    Facial recognition is very, very important and critical to 
one-on-one identification. The fingerprints give us an added 
level of security and protection because we can compare it 
against a huge fingerprint database. It doesn't necessarily 
help us if there is an isolated fingerprint found in a safe 
house for a terrorist or elsewhere. But as long as you have the 
finger scans you can match against a 10-digit database.
    So in the long run I have had some public and private 
conversations with our colleagues. Let's start with the facial 
recognition, because there is some constitutional and cultural 
resistance to adding fingerprints around the rest of the world. 
But I will tell you that the law enforcement community around 
much of the world believes that you start with facial and down 
the road we should add the fingerprints. That is again 
something to be determined. We need to take the leads and 
accept the international standard, facial, but then use ICAO as 
an organization and other international organizations to build 
in redundancy in the system.
    Mr. Keller. Thank you.
    Mr. Chairman, my time has expired.
    Chairman Sensenbrenner. The gentleman from Massachusetts, 
Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    Secretary Powell, I agree with you wholeheartedly that 
international visits by folks from abroad is an essential piece 
of our foreign policy; and we are in danger of losing that 
particular tool in our arsenal, if you will.
    Just a segue to comments by my friend from California, Mr. 
Berman. I just returned from Guatemala where there were a 
number of American citizens there, prospective adoptive 
parents. You have a great staff there at the embassy and at the 
consulate, but they are overburdened, and we continue to have 
serious problems in terms of treating those American citizens 
who are going to adopt on an intercountry basis in a way that I 
think they deserve.
    So please continue to advocate for that 9 percent increase. 
Because, otherwise, it's going to hurt not just American 
citizens but children from all over the world who should be 
adopted.
    In addition, I also represent the greater Boston area, Cape 
Cod, Nantucket, Martha's Vineyard, which is also a well-known 
tourist destination which will host the Democratic national 
convention in July of this year. I am very concerned about the 
decrease in the number of international visitors coming to the 
United States. Do you have data that shows either an increase 
or decline from 2001 in terms of international visitors?
    We rely on international tourism. As you well know, Boston 
also is a center for educational excellence in the United 
States. You alluded to Harvard University. We have MIT, Boston 
College, Boston University. My listening to the representatives 
of those institutions indicate a dramatic decline in the number 
of applications coming from abroad. Like my friend from 
Orlando, I recognize the need for this particular extension, 
but I'd like either one of you to address the differences, the 
hard empirical data in terms of where we were and where we are 
now in terms of students coming to this country and in terms of 
visitors from abroad coming into this country. Because it 
clearly--I think it was Secretary Powell that indicated--maybe 
it was you, Secretary Ridge--one out of eight jobs in this 
country is affiliated with the industry.
    One final comment and then I'd ask for your response. How 
about a Web site for international visitors either through DHS 
or DOS, being very clear as to what the conditions and the 
requirements are for travel to the United States? Please 
consider that.
    Secretary Powell. Let me begin. The overall statistic is 
that we are down 30 percent since 2001. That's significant. 
It's a lot of money. It's a lot of people.
    When you look into that number, though, you will find that 
in some Arab countries, for example, it's much higher because 
of a perception that they are less welcome than somebody coming 
from, say, a European country.
    An example of the kind of problem we run into from 
President Summers' letter--Larry Summers letter from Harvard: A 
Chinese Ph.D. candidate working at Harvard on an important 
program went home for a family event, wedding of some kind, and 
needed to reapply to come into the country. With the new system 
in place and the new barriers in place and the backlog of 
these, it's taken months for him to get that visa and his work 
has had to be given to someone else and his whole doctorate 
program has been seriously interrupted.
    People are not going to take that for very long, and when 
the word gets out to others they will start going elsewhere.
    Yesterday I had some people complaining to me about 
scientific changes with conferences, symposiums. People can't 
get to them. This hurts us. It is not serving our interests. So 
we really do have to work on it.
    I think we are going to be getting much better in the very 
near future because between Secretary Ridge's department, my 
department and FBI, CIA, I think we are doing a much better job 
of integrating all of our databases through the Terrorist 
Threat Information Center and all the other databases that are 
coming together that allow us to check people more quickly.
    Secretary Ridge. If I might--thank you for that comment. My 
comment, we made, I think understandably, right after 9/11 some 
fairly significant adjustments to visa policy in this country 
where, given the horror and the destruction of 9/11, security 
moved immediately to the fore. Secretary Powell and I, 
Secretary Evans, all the concerns he has with travel- and 
business-related visas have agreed that we need to take an 
introspective look at the adjustments and we need to perhaps 
adjust the adjustments as it relates to visas. And what we are 
doing with the support of Secretary of State, Secretary of 
Commerce, looking specifically at the outset at business 
travel, educational and scientific travel, and security 
advisory opinions to accelerate that process.
    So we are aware that it is a problem. Much of it is 
associated with well-intentioned, understandable, predictable 
changes we made right after 9/11. But 2 years has elapsed. We 
have seen the consequences of some of these changes, and we 
have to be serious about reviewing them and providing the 
balance between security and openness. We have to determine 
whether or not the provisions that we adopted right after 9/11 
have actually added to security or have increased, exacerbated 
and created economic problems for us as well. We are very much 
engaged in this process together.
    Secretary Powell. And we are engaged with the Congress, 
because many of these provisions were placed correctly upon us 
by the Congress at the time. But, for example, we now have to 
interview visa applicants universally. But if you're in a 
country like Russia and you have to travel a thousand miles to 
get to a consular officer in order to make the application and 
have the interview and then go back, wait months to hear what 
the outcome is or weeks to hear what the outcome is and go 
back, it becomes much more difficult.
    We want to protect the Nation, but we have got to do it in 
a smart way, and the kinds of adjustments that Tom is talking 
about are ones we need to look at, and we may need some 
legislative relief.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Secretary Powell, Secretary Ridge, welcome. We are honored 
to have you here. The presence of both of you I think sends a 
strong message to Congress, how important this issue is and how 
important it is that we address it promptly but also 
thoroughly.
    Secretary Powell, I would guess that a great many Americans 
don't understand the role that you and your department play in 
homeland security. That, in effect, the hundreds and hundreds 
of U.S. consular offices around the world and the millions of 
visa applications that citizens of other countries submit is 
really our frontline of defense in the security of our country 
since we know that most of these terrorist threats are from 
people who would come from elsewhere to cause us harm. So we 
thank you very much for the understanding and the recognition.
    I want to second what the gentleman from Massachusetts 
said. This is a very important task, but it's also a serious 
problem that we design a system that works efficiently and 
rapidly. I've had a number of my constituents doing important 
work for U.S. companies doing business around the world who 
have left to go to other places to conduct that work and are 
unable to get back to continue their responsibilities here as a 
result. So anything you can do in that area we very much 
appreciate.
    Secretary Ridge, I am also a Member of the Select Committee 
on Homeland Security and in that capacity have had the 
opportunity to visit some of our ports of entry and see the US-
VISIT program operating. It is an impressive program, and most 
of the time it will work very efficiently and very quickly to 
identify people. Particularly where they have been to a 
consulate and State Department officials have had the 
opportunity to scrutinize this individual and pass muster, the 
match-up is a very effective thing.
    But that leads us to the obvious question: How much other 
data are you receiving that goes into that program that will be 
useful for the countries that are under the visa waiver program 
and are not going through that kind of clearance process in the 
consular offices?
    Secretary Ridge. Well, one of the requests we have and we 
are working with our friends in the European Union is to get 
additional information with regard to foreign travelers through 
the passenger name records. You know, we get certain basic 
information from men and women who are going to be flying into 
the country or taking a trip across the Atlantic. So we are 
going to get additional biographic information from the 
European Union. Those negotiations are ongoing. I feel 
confident, though they have been somewhat controversial, that 
at end of the day we will be able to secure additional 
information.
    Because, again, particularly since 9/11 and the regrettable 
number of terrorist-related incidents around the world, more 
and more countries are becoming even more sensitive to the 
notion that they have an interest in protecting their borders 
in a fashion, perhaps not precisely like the United States, but 
getting information about people coming to and from their 
countries as well is in their best interests.
    So I think Secretary Powell and I are really committed to 
trying to develop a single standard for air travel, a single 
standard for document authentication, a single standard for 
personal identification; and there are a lot of people out 
there who want to work with us to make it happen.
    Mr. Goodlatte. Secretary Powell, is there a quid pro quo 
here? Can we at the same time that we are telling these 
countries that we are giving this extension of time suggest 
that they need to accelerate the cooperation that they are 
providing us with passenger and other criminal information and 
so on?
    Secretary Powell. Certainly. There have been quite a few 
discussions, as Secretary Ridge said, about the passenger 
information. I think we can use this extension to put pressure 
on them with respect to any remaining difficulties there are to 
this kind of effort.
    Mr. Goodlatte. Let me ask you one more question. The U.S. 
PATRIOT Act provided that by October, 2003, aliens arriving 
under the U.S. visa waiver program had to have machine-readable 
passports. The act allows you to waive this requirement to 
October, 2007; and you have waived that requirement only to 
October, 2004. Do you expect that all the visa waiver countries 
will be issuing machine-readable passports by this October and, 
if not, do you plan any further waivers for individual 
countries? Does the State Department regulation provide 
exceptions for nonmachine-readable passports on any basis and, 
if so, how long will those passports be accepted for admission?
    The reason I'm asking is nonmachine-readable passports 
valid for 10 years could be valid for quite a long period of 
time beyond which we get the other program operating.
    Secretary Ridge. I would just say to you that I was asked 
earlier with regard to using US-VISIT, even if the extension is 
applied; and I think US-VISIT, even if you have a machine-
readable passport or a nonmachine-readable passport, adds that 
layer of security until we get everybody up to the situation 
where they have an international-compliant, biometrically 
enabled machine-readable passport.
    So I think if it's our call within the Department of 
Homeland Security we will use US-VISIT in perpetuity as these 
countries ratchet up to get to the requirements that Congress 
has appropriately said that we need to apply.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Virginia----
    Mr. Goodlatte. Mr. Chairman, I think Secretary Powell 
wanted to answer.
    Secretary Powell. The only thing I wanted to add is that 
US-VISIT will continue even after we get machine-readable and 
biometric passports. Secretary Ridge intends to continue with 
US-VISIT so we get that other layer of security.
    Secretary Ridge. Particularly because it's the finger 
scans. The facial recognition is very good to confirm that the 
person who got the visa is the person who shows up at the port 
of entry. It doesn't give us a means of being able to take a 
look at a fairly exhaustive database dealing with criminals and 
people we have deported and in time I suspect even fingerprints 
of terrorists and terrorist suspects. So, again, I think we all 
plan on having that as part of our entry admission system in 
perpetuity until circumstances warrant a change.
    Chairman Sensenbrenner. The gentleman from Virginia, Mr. 
Scott.
    Mr. Scott. Thank you, Mr. Chairman; and with the indulgence 
of our two secretaries, I'd like to submit several questions 
for the record----
    Chairman Sensenbrenner. Without objection.
    Mr. Scott.--that you can answer. And let me just go over 
what they will be.
    Exactly what are the technological barriers to meeting the 
October deadline? And how--why should we have any confidence 
that you will be able to overcome these barriers within 2 
years?
    The second is, have you evaluated the problem of false 
positives and false negatives in the identification?
    Third, what privacy concerns have been studied and what 
were your conclusions?
    And, fourth, what provisions have been made to make the new 
passports tamper resistant?
    And if you could, between the two of you, respond to those, 
I'd appreciate it.
    Let me ask a couple of other questions.
    If we don't extend the deadline and we require visas for 
people visiting the United States, will they require visas for 
United States citizens visiting them?
    Secretary Powell. That would be a judgment each country 
will have to make on its own.
    There was a recent experience where one country was not 
happy with the US-VISIT program, and it reciprocated in kind 
against our people coming into their country. I think we've 
kind of gotten over that once they realized that this only took 
15 seconds and it wasn't painful--and, frankly, those people 
going through kind of enjoyed the novelty of it and realized 
that it was for their protection.
    So we always have that possibility, but--I think, with the 
individual countries, we will have to deal with it as it 
occurs.
    Mr. Scott. Will U.S. citizens have trouble getting back 
into the United States if they leave?
    Secretary Powell. U.S. citizens?
    Secretary Ridge. No, they would not.
    Congressman, I just wanted to just add, the false match 
rate--because, obviously, we worry about positives and 
negatives. For the fingerprint one-to-one match, so far our 
experience is less than one-tenth of 1 percent. It is a pretty 
reliable way of confirming identity.
    Mr. Scott. One-tenth of 1 percent when you are talking 
about millions is still quite a few.
    Secretary Ridge. That is exactly right. And we obviously 
try to work to a foolproof, failsafe system. We will keep 
working on it.
    Mr. Scott. Without going into detail or asking a question, 
let me just associate myself with the concerns about tourism. 
That's a very heavy part of the southeast Virginia economy. So 
we would want to make sure that whatever we do doesn't 
adversely affect tourism.
    Now, do I understand if the passports that are issued above 
whatever the deadline is, will they be good until they expire?
    Secretary Powell. Yes, it's all passports issued after the 
deadline date that must be machine-readable and biometrically 
enhanced.
    Mr. Scott. And, therefore, those issued before the deadline 
will be good until they expire.
    Secretary Powell. Right.
    Secretary Ridge. That's one very good reason for us to keep 
the US-VISIT system in place. Some countries issue a 5-year 
passport, some 10. If you extend the date, every passport 
issued after that would have to be machine-readable, 
biometrically enabled. Those passports issued before would have 
an expiration date and necessarily would not have to apply for 
a new passport. They could use the old passport, which is 
another reason we think we ought to keep US-VISIT in play 
indefinitely.
    Secretary Powell. And I would hope most of these countries 
would be well on their way to issuing the new passports before 
the deadline.
    Mr. Scott. Exactly who is in the database that we will be 
catching with the biometrics?
    Secretary Ridge. Well, the facial databases are obviously 
fairly small, photographs, and the larger database primarily 
supplied by the FBI, but other agencies, the fingerprint 
database is in the millions.
    When we--when people are convicted of a crime, we get the 
full set of prints. When individuals are deported, there is a 
full set of prints. So in the database we are looking at 
noncitizens who've been convicted of a crime or deported.
    Mr. Scott. Were the 9/11 hijackers in the database?
    Secretary Powell. No. No, I don't believe so. No.
    The biographic data and the finger scan, taken as they come 
through the point of entry, is immediately referred to the 
database. What the biometric facial identification does, it 
makes absolutely sure that the holder of the passport is the 
proper holder of the passport because you have the facial 
recognition.
    Secretary Ridge. You raise, Congressman, a very, very 
relevant and important point. It's one of the reasons that we 
are trying to work with our allies in the European Union to 
give us additional biographical information. In the 
international community, so many individuals share the same 
name; and if you get the name and name only you run into 
obviously many complications, potential conflicts. So the more 
biographical information that we can get about an individual, 
then the more relevant that database is to keeping the borders 
open and secure at the same time.
    Mr. Scott. Thank you, Mr. Chairman.
    I think that's one of the problems we have, people with the 
same names. What happens when you have a match with just the 
name?
    Thank you, Mr. Chairman.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Secretary Powell, I have a vested interest in the subject 
of the hearing today, both as a Member of Congress and as the 
author of the original entry-exit system in 2000. I know you, 
Mr. Secretary, and Secretary Ridge are doing everything humanly 
possible to prevent another terrorist attack. But at the same 
time, if there is one, it is logical to assume that the attack 
will take advantage of the weakest link in our security chain 
which may be trying to enter the United States from a visa 
waiver country.
    It also seems to me that it is human nature to wait until 
there is a deadline before you perform whatever action you're 
required to perform. My concern is that the 2-year postponement 
of the deadline is unnecessarily long, especially considering 
that a number of countries seem to be willing to implement the 
new system sooner. So why not move the deadline up to, say, 1 
year, keep the pressure on those countries who seem to be able 
to implement the system sooner, lock them in and if absolutely 
necessary extend it again? It seems to me that 2 years is too 
long.
    But I would be happy to have you respond to that.
    Secretary Powell. It was a judgment call, Mr. Smith. We 
felt that countries in the VWP program, there were a number of 
them who clearly can meet the deadline within a year and will 
start to issue the new passports within a year.
    But it was just as clear that other countries were further 
behind. The ICAO standard has only been out there for 17 months 
for them to work on, and it was clear that they were not going 
to be able to get into it until 2006. So we thought the most 
prudent thing to do, so we didn't have to come back once again, 
was to ask for a 2-year extension.
    But I will assure you--and Secretary Ridge I'm sure would 
join me in this--that this is not going to be an opportunity 
for all of them to lay back and wait until November 30th, 2006. 
We will be working with each of them to get them on line as 
fast as we possibly can.
    Mr. Smith. Okay. Thank you, Mr. Secretary.
    Secretary Ridge, you mentioned a while ago both the facial 
and the fingerprint biometric identifiers; and we are starting 
out with the facial and then hopefully moving to include also 
the fingerprint. Why not reverse the order for these reasons: 
The fingerprint biometric identifier I understand can be 
implemented more quickly; and, more than that, it is very 
secure. As you mentioned a while ago, we already have ample 
fingerprint databases, whereas the facial database is new and 
small.
    So why not reverse the order? We could do it quicker, and 
it would still be more secure than neither. Why not have the 
fingerprint first and then move to the facial?
    Secretary Ridge. I think we need to recognize that if we 
are to lead the international effort to come up with an 
international standard, as a member of the ICAO international 
organization that really wrestled with this problem for a 
couple of years, that we need to embrace the international 
recommendation to use the facial and then use the same 
organization--which did not exclude, by the way. They said you 
can also use fingerprints or iris scans. But I think as we try 
to lead and be part of an international effort to create a 
single standard that we ought to accept the recommendation of 
the international community. We have backup in our own country 
with US-VISIT where we do require the finger scans and use the 
same and similar international organizations to put the 
redundancy in the system.
    Mr. Smith. It does seem to me that with the security of the 
United States we might want to lead the international community 
and perhaps push the fingerprint before the facial. Obviously, 
you have reasons not to do that.
    Secretary Ridge. But I will tell you that the international 
standard we all accept, and we are not waiting to begin the 
process of convincing our colleagues around the world that we 
need to take the next step through ICAO and other organizations 
to add fingerprints to it. The law enforcement community is 
almost universally in agreement for their own sovereign 
purposes that a system that includes fingerprints in the future 
should be part of their system and therefore part of an 
international system as well. So our continued advocacy will be 
for at least both and down the road you might even throw in an 
iris scan.
    Mr. Smith. Secretary Ridge, one more question I will try to 
squeeze in. This goes to the US-VISIT program. We are making 
advances as far as the entry. We have missed the deadline on 
the exit aspect or the exit component of US-VISIT. We have a 
pilot program that has made the deadline but not implementing 
the entire program. As you all know, the exit is just as 
important of a component as entry, because if you don't know 
when somebody has left the country, you don't know who is in 
the country illegally. Why are we behind on that?
    Secretary Ridge. Well, we actually met the congressional 
mandate for exit system because we do record based on 
biographical who is leaving. We added--homeland security said a 
name based entry-exit program would give us a little security, 
but we thought biometrics would be an added level of security. 
We have several pilot projects up and believe that we will add 
another level of exit security in addition to the biographical 
exit system that we have.
    Mr. Smith. Thank you.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from North Carolina, Mr. Watt.
    Mr. Watt. Thank you, Mr. Chairman.
    Let me go on record at the outset as agreeing that it is 
impractical, impossible to meet the deadline that is in the 
current law. However, I think, with all due respect, that may 
be the wrong question to be debating. I think a more relevant 
question would be whether the visa waiver program has a 
rational basis itself. It's based on the premise that nationals 
of participating countries pose little risk of being security 
threats or overstaying the period of their admittance, and I've 
always had a problem with this whole concept of having a visa 
waiver program in existence.
    So while I don't argue with the impossibility of meeting 
the biometric standard, I do argue with the conclusion that 
that gets you to, which is that you ought to continue to march 
in place using a visa waiver program.
    It seems to me that we are in exigent circumstances, and we 
know that. As the Secretary said, Secretary Powell said in his 
opinion piece, other countries have to pardon the inconvenience 
while we adjust to these new circumstances.
    I remember when I was growing up we used to leave our doors 
open. We never locked them. I don't think that the fact that my 
mother now locks her doors means she's any less open, less 
friendly. She just needs to know who's coming into her house 
when they show up at the door. It's a little more prudent--it's 
prudence, I think.
    So let me ask a couple of questions that are aimed at the 
visa waiver program.
    Is it true that Zacarias Moussaoui, the so-called 20th 
hijacker from the September 11 hijackers, came to the United 
States as a French national under the visa waiver program?
    Secretary Powell. I'd like to provide that for the record, 
just to make sure I get it absolutely right, the circumstances 
under which Moussaoui came into the country.
    [See Appendix for response from Secretary Powell.]
    Secretary Ridge. I think you're right. I believe he did.
    Mr. Watt. Is it true that Richard Reid, the shoe bomber, 
came in under a French Government or British passport that the 
French Government believes to be legitimately issued and he 
came in under the visa waiver program?
    Secretary Powell. That's my understanding, but we'd like to 
provide it for the record as well.
    [See Appendix for response from Secretary Powell.]
    Mr. Watt. Is it true that, from what we know about the 
people who did the bombs in Madrid, many of them would have 
been able to come in under the visa waiver program without 
getting visas?
    Secretary Powell. I don't know enough about the individuals 
to say. But if they were eligible as Spanish citizens, yes.
    Mr. Watt. Is it true that none of the South American 
countries are eligible under the visa waiver program?
    Secretary Powell. Yes.
    Mr. Watt. Is it true that there are no African countries 
eligible under the visa waiver program?
    Secretary Powell. Yes.
    Mr. Watt. So I guess the point I'm driving at here is we 
have a set of standards that are applicable to these 27 
countries that's based on a premise that is a questionable 
premise; is that true? I mean, what's your assessment of that?
    Secretary Powell. The premise of the visa waiver program 
from its beginning in 1986 was that there were some countries 
that had relatively low level of risk with respect to who would 
be using the program and coming into----
    Mr. Watt. With respect to who would go back after they got 
in. Nothing to do with any kind of risk. The criteria was 
whether they would go back at the end of the period as opposed 
to say staying in the country. Isn't that the premise on which 
the visa waiver program was based?
    Secretary Powell. Yes, the visa waiver program is only good 
for 90 days, the expectation that these people would go back 
before the 90 days had lapsed. The participation in the program 
was designed for countries where the initial rejection rate of 
people coming for visa applicants was relatively low, and it 
looked like we could have more confidence in having such a 
program with these countries than with other countries in the 
world.
    Mr. Watt. Mr. Chairman, it looks like my time is up, but I 
think you get my drift.
    Secretary Powell. Sir, if I could only make one other 
point. This comes up from time to time.
    We have studied it from time to time, and one of the things 
the visa waiver program does do for us, if we can accept that 
there might be some risk associated with it, is that it allows 
us to allocate more resources to other countries where there is 
a higher level of risk. So doing away with the visa waiver 
program would essentially require us to do to the visa waiver 
program countries that we do elsewhere in the world, requiring 
many more resources that would be taken away----
    Mr. Watt. But we reduced the number of consuls in Brazil 
over the last 2 years so the people have to travel further; 
isn't that right?
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Texas, Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Secretary Ridge, I want to get back to the identification 
system that we are using.
    The other night I happened to be wandering through when my 
daughter was watching a television program with these women 
having their faces made over; and, quite honestly, some of them 
you couldn't recognize as the person who started into the 
program after the plastic surgeons got through with them. Isn't 
that a risk in facial identification? Nothing more than the 
computer and reading a photograph rather than a human being 
reading a photograph; isn't that correct?
    Secretary Ridge. Well, I would tell you that those who've 
looked at digital photography--and certainly our National 
Institutes of Standards and Technology as well as the ICAO will 
probably admit that it is not an absolutely, 100 percent 
guarantee, as no database would be. But even some material 
alteration of certain facial features could be detected with 
the right kind of technology.
    Mr. Carter. And adding to that question, it's taking--we 
see right now the biometrics we're proposing internationally, 
that we are going to have a delay over our deadline of 2 or 3 
years, and we're talking about an extension, and possibly 
someone is going to come and ask for further extensions. Well, 
that question already has been asked. Somebody courageous, as 
you pointed out.
    But if that's the case--let's just go on the assumption 
that we find that we have flaws in the facial identification 
and we really wish we had fingerprint identification, we really 
wish we had iris identification, so we then propose we're going 
to put fingerprint identification in the biometrics. Now we 
have another 3 or 4 years delay while all the international 
community adds that. And if that is not sufficient, we will add 
iris identification, and we go through three extensions of 
redoing biometrics in our program to order to reach the 
ultimate which we are wanting to seek to be able to be as sure 
as we can be with modern science.
    Why not go ahead and do it now, one cost, one time, and get 
it all done at one time so we don't have to come back and say 
it would have been better with fingerprints, so now everybody 
do fingerprints? Later, it would be better with iris, now 
everybody do iris. Why don't we put them all in one chip and 
put it in the passport now?
    Secretary Ridge. I believe that certainly the advocacy that 
we have undertaken in the department Administration-wide is not 
wait for another occasion or another event to advocate 
redundancy in the system. We're working very hard to reach an 
agreement and convince people around the world that we ought to 
right now, as we go about identifying and accepting the 
international facial recognition standard, to begin to build 
some redundancy in the system.
    The iris technology is still a little bit uncertain. There 
are varying opinions as to its reliability.
    There is more of a constitutional or cultural resistance 
internationally to the use of fingerprints than there is a 
scientific one. Again, the failure rate is very, very low.
    But as we try to drive the international community to a 
single standard we don't want to be in the position of having 
an American standard and an other world standard. We accept the 
international standard of facial recognition and push as hard 
as we can and be as aggressive as we can to add one or two 
additional features to either the visas or the passports.
    Mr. Carter. I agree with Chairman Smith. We should be 
driving this train----
    Secretary Ridge. We are.
    Mr. Carter.--and not the international community. We are 
the ones that got our buildings blown up.
    On this issue of people going overseas, the scientists who 
went to China for a funeral or wedding or whatever and couldn't 
get back in. How difficult would it be for State to implement a 
program where universities or corporations or whatever who have 
people traveling that way can make a brief application to State 
to flag a passport to avoid these reentry problems?
    We had a similar problem with the chairman of Samsung in 
Austin. Ultimately, it was resolved by flagging the passport, 
because he was traveling so much that he had to be identified.
    It looks like to me that would not be that difficult a 
program or expensive a program to implement to accommodate 
these people who have to leave and have to come back.
    Secretary Powell. Secretary Ridge and I are looking at that 
now: How can we carve out classes of individuals who we see no 
risk in this class of individuals and expedite their returning 
to the country.
    Mr. Carter. They should have some responsibility to apply 
for that, too, I think. Everybody is responsible for their own 
problems; and if they want that special privilege, then they 
should apply for it and have it granted by State.
    Secretary Ridge. If I might just--I know our time is up, 
but before this hearing today I met with several university 
presidents, including the president of the University of Texas, 
and this is one of the issues that they raised. And I can just 
assure you that the Secretary of State and yours truly, as well 
as the college and university community around the world, work 
together to make significant changes in the student visa 
program. There are still some additional challenges, and this 
is one of them, and the colleges and universities will partner 
with us to achieve that workaround. I'm absolutely confident of 
that.
    Mr. Carter. Thank you, Mr. Chairman; and I thank both of 
these honorable gentlemen.
    Chairman Sensenbrenner. The gentlelady from California, Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I found this to be an interesting hearing, because, as I've 
listened, it's become clearer to me that, while we do need to 
play a role internationally in setting the standard, the most 
important thing for us is, as Americans and as the Congress, is 
to make sure we know who is coming in here; and actually our 
US-VISIT system does that pretty well. So whether or not the 
request to extend the biometric requirement for passports goes 
forward, we actually have that protection for us for US-VISIT 
individuals.
    I guess one of the questions we might want to ask is 
whether we extend that US-VISIT model to any nonimmigrant 
visitor who does not have a machine-readable passport. That 
might actually solve the security issue that we have before us 
on the international standard, and I think it's something that 
we ought seriously to consider.
    With that, I think that we need to think about how we 
utilize the data that we obtain and whether we are really 
getting maximum value out of it.
    Before I was in Congress and before I was elected to any 
office, I taught immigration law and I practiced immigration 
law; and, with all due respect, I think the consular officers 
abroad I think are decent people and hard-working people. I 
certainly--but they don't have a lot of information. Having 
someone go in to apply for a visa doesn't give me a high level 
of confidence they're going to pick out the bad guy from the 
good guy because they don't have databases, they don't have 
information.
    I think the ability to identify someone at entry is really 
in some ways a higher level of confidence than what we are 
going to get with a visit to a consular officer. Because you 
cannot commit identity fraud after you have once been admitted. 
You can be Joe Doe the first time. If you are John Smith, you 
are John Doe forever.
    The question is, how do we connect the dots? That gets to 
the database issue where we have substantial need to put 
resources.
    Secretary Ridge, I was upstairs with Mr. Liscouski. We do 
not have a merged data list in terms of what our CIA and others 
have in terms of risk. It's not available to your officers at 
the airport, it's not available to the State Department visa 
officers, and, furthermore, we don't have any ability to input 
and connect the identity of entrants to the most significant 
database, which is the immigration service. As you know, they 
are still creating paper files. They are creating microfiche. 
They have legacy systems. You may know the biometric, you know 
who is coming in, but you have no way to connect that person to 
their history in the immigration service.
    So my question is when is that going to change? When are we 
going to score on that effort to get the databases merged from 
a security--international security point of view and then also 
get the immigration service database in line?
    Secretary Ridge. First of all, I think at the heart of the 
President's initiative in the creation of the Terrorist 
Screening Center is to compile--we have the databases, and all 
the relevant agencies have access to them. But it's very labor 
intensive, and the ultimate goal which I think will completed 
by the end of the summer is to merge them technologically.
    Ms. Lofgren. That is the end of the summer?
    Secretary Ridge. Yes, obviously, in the next couple of 
months. So not only will we as departments have access to them, 
but then it's our job to put the technology connect to the 
borders and to the airports to give them access to that 
information as well.
    Ms. Lofgren. What about the immigration service? I've been 
here in Congress now for 9 years and for 9 years I have asked 
this question of--you know, obviously bipartisan question--the 
immigration service is still not technologically efficient. We 
are paying a price for that. When are we going to get there?
    Secretary Ridge. First of all, under the leadership of the 
Director of Citizenship and Immigration Services, Eduardo 
Aguirre, we have begun the process of investing more heavily in 
technology, to the extent that 35 or 40 percent of the 
applications that really, really bog down it is a very labor-
intensive process we're putting on line.
    Ms. Lofgren. But the problem is, you know, the biometrics 
are more reliable than the names; and your I-94 ought to be 
filed by your fingerprint and your iris scan, not by your name. 
We are not there, and when are we going to be there?
    Secretary Ridge. Well, we have had the Department for about 
a year. Unfortunately, in the previous 8 years when you were in 
Congress, you never got the answer that you wanted.
    Ms. Lofgren. And I'm still not.
    Secretary Ridge. Well, you got part of the answer. We are 
putting about 35 to 40 percent of the applications on line. We 
know that it is absolutely, indisputably technologically 
deficient; and we know that we have to make significant 
investments over the next couple of years and bring it into the 
latter 20th century, let alone the 21st century.
    Chairman Sensenbrenner. The time of the gentlewoman has 
expired.
    The gentleman from North Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Secretaries Powell and Ridge, it is good to have both of 
you with us this morning.
    I'm going to put a two-part question to you all. What 
assurances has the United States received from the visa waiver 
countries that they will have biometric passports ready by 
2006, October? A. And, B, if any of these countries are unable 
to meet that deadline after a 2-year extension--and my friend 
from Texas may be right, that may be overly generous, but let's 
assume 2 years--will its citizens be required to obtain entry 
visas or will the fingerprint and picture requirements under 
the US-VISIT program provide the level of security needed to 
block entry of terrorists?
    Secretary Powell. They will be required to obtain visas, 
the same thing that would have happened the 7th of October of 
this year if we don't get the relief. All we're asking for is a 
straight 2-year extension, and all the countries that we have 
been in touch with understand the importance of bringing on 
line in that 2-year extension period their machine-readable 
biometric passports. Because at the end of that extension 
period I can assure you I would have no intention to come back 
to the Congress again and plead. Because by then they would not 
only have had the past 17 months from the setting of the ICAO 
standard but another 2 years from that 17 months, and that is 
enough time for everybody to get it.
    Mr. Coble. Do you want to weigh in on that, Mr. Ridge?
    Secretary Ridge. I agree.
    First of all, I think, as I mentioned before, they have an 
interest, a personal, a sovereign interest in accelerating the 
process themselves as they design entry-exit systems themselves 
around biometrics. That is certainly an impetus to this. And 
they know that at the end of the line if they don't do that 
they will have to go and stand in line and get a visa.
    Mr. Coble. I think by implication you have answered my next 
question, but I want to put it on the record.
    Given that there are a finite number of biometric 
identifier manufacturers and questions have been raised by many 
about the durability and the security of the identifiers, do 
Homeland Security and State have confidence that the 
manufacturers will be able to meet the worldwide demand with a 
reliable product in time for the visa waiver countries to meet 
the deadline?
    Secretary Powell. I don't have detailed knowledge of the 
manufacturing base to be able to answer the question. So with 
your permission, sir, I'd like to get the answer for the 
record.
    Mr. Coble. Oh, that would be fine if you could get that to 
me subsequently.
    [See Appendix for response from Secretary Powell.]
    Secretary Ridge. One of the challenges we have right now--I 
think the marketplace will respond, because countries are going 
to be investing hundreds of millions of dollars.
    One of the challenges we have right now is that we have the 
need for different kinds of readers, because the marketplace 
has responded with different kinds of facial identification 
technology. I think that the marketplace will get us there, but 
we will give you more specific responses in writing.
    Mr. Coble. And I would appreciate that.
    Finally, gentlemen, are there any unusual reasons that 
would attract our attention that the visa waiver countries have 
given for having been unable to meet the October 26th deadline? 
Nothing out of the ordinary is what I am saying.
    Secretary Powell. No, my understanding of it--and we will 
check just for the record--but the foreign ministers I have 
spoken to about this new visa waiver program simply say that 
they haven't had enough time to get the technology straight, to 
get the design ready, to do the manufacturing process. They are 
committed to it. They are not dragging their feet, but 17 
months simply has not been enough time to get the program in 
place.
    Mr. Coble. Secretary Powell, as you said in your opening 
statement, we definitely need to make it known worldwide that 
our friends from across the ponds are welcomed to come here. I 
don't want that to be lost in the shuffle.
    Gentlemen, thank you again.
    Mr. Chairman, I yield back.
    Chairman Sensenbrenner. The gentleman from California, Mr. 
Berman, on his own time.
    Mr. Berman. Thank you, Mr. Chairman.
    Secretary Ridge, I have one question. And if you would 
allow me, hold off on your answer. Then I'm going to yield the 
rest of my time to Mr. Conyers, who wanted to ask you 
something; and then you could answer both of our questions at 
that point.
    The 9/11 Commission released preliminary findings assessing 
some of the immigration enforcement efforts that your 
Department and the Department of Justice made post-September 
11. Those findings question the efficacy of some of the 
specific programs in identifying people connected to terrorism 
within our borders.
    Mr. King. Mr. Chairman, I object.
    Mr. Berman. Pardon me?
    Mr. King. Mr. Chairman, I object on the grounds that this 
question is off the topic of this hearing.
    Chairman Sensenbrenner. Okay. The Chair will quote from 
House rule XI(k)(8): In the discretion of the Committee, 
witnesses may submit brief and pertinent sworn statements in 
writing in the record. The Committee is the sole judge of the 
pertinence of the testimony and evidence adduced at the 
hearing.
    The question is: Is the question asked by the gentleman 
from California pertinent to the topic of this hearing?
    Those in favor will say aye.
    Opposed, no.
    The ayes appear to have it. The ayes have it. The gentleman 
from California may proceed.
    Mr. Delahunt. Mr. Chairman, point of inquiry. I'd like to 
state my point of inquiry. I have yet to hear a question.
    Chairman Sensenbrenner. The gentleman from California.
    Mr. Berman. At some point quickly we will get to my 
question, which apparently upset some people. I don't even know 
what it is yet.
    A former DOJ employee responded to this saying that those 
programs, if not effective in counterterrorism, were at least 
effective in deporting a number of undocumented immigrants.
    The question is about resource management of the 
Department. There is a proposal in the House called the CLEAR 
Act. The CLEAR Act would withhold funds from local law 
enforcement and reimbursement for the incarceration by States 
and counties of illegal aliens unless local law enforcement 
detained those they come across in their normal law enforcement 
duties, including victims of crimes and witnesses to crimes who 
are out of status, and hold them until your Department would 
pick them up. It would divert funds from the visa fees going to 
process and do all the biometric tests for visa applicants to 
reimburse local governments for the cost of these programs. 
This CLEAR Act is not focused on terrorism-related concerns but 
on the issue generally of undocumented immigrants.
    It seems to me this type of enforcement could be an 
overwhelming burden on DHS and its security resources. Is this 
the type of enforcement where you intend to focus DHA's funds 
and personnel?
    And I'd like to yield the rest of my time to Mr. Conyers, 
and I assume that our little discussion about the relevance of 
my question is not part of the time.
    Chairman Sensenbrenner. Does--Secretary Ridge, do you want 
to answer that question?
    Secretary Ridge. I'd like to try.
    Chairman Sensenbrenner. Go ahead.
    Mr. Berman. I--okay.
    Secretary Ridge. Congressman, whether it's the CLEAR Act or 
not, until the Congress and this country has--says loudly and 
clearly that the integrity of our immigration laws are of the 
greatest importance to us and that we are prepared to expend 
the resources in order to assure its integrity, we will 
continue to try to nibble around the edges of taking a little 
money out of this Department and putting it over here.
    Clearly, I would like to think that in the future we would 
be a lot more aggressive in enforcing our immigration laws. But 
I also think that we kid ourselves when we think that the 
diversion of a few dollars from one pool of money to another 
will give us the kind of foundation with which we are able to 
do that.
    I'm not personally familiar with the CLEAR Act and would be 
pleased to respond to what I consider a very relevant question 
in writing.
    Diverting a little money from here to there--it would cost 
us hundreds of millions if not billions of dollars. If we're 
serious about immigration laws and we are serious with the 
enforcement, then we have to be equally serious about the 
number of dollars we put forth. There are a lot of discussions 
and in this '05 budget we asked for more money for retention 
and more money for teams to go out and help enforce the 
immigration laws of this country. It is a very important 
question.
    We have asked the President to give us more money in this 
regard in the '05 budget. We sent it up to the Hill. Hopefully 
we will get it. But even then we have to make over the next 
couple of years a fundamental decision with regard to providing 
far, far more resources.
    Mr. Berman. In this case----
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from California, Mr. Gallegly. The gentleman 
from California, Mr. Gallegly.
    Mr. Gallegly. Thank you, Mr. Chairman.
    Mr. Chairman, first of all, I ask unanimous consent that my 
opening statement be made a part of the record of the hearing.
    Secretary Powell and former colleague, good friend, 
Secretary Ridge, it's always good to have you here and you are 
providing a tremendous service at a very difficult time to this 
Nation; and I think that all of my colleagues would agree with 
me on that.
    First of all, Secretary Powell, President Bush announced 
that the US-VISIT--what we know as US-VISIT would not be used 
to fingerprint and photograph Mexican nationals entering the 
United States with border crossing cards. Reportedly, the 
President ceded to the demands of President Vicente Fox, who 
was concerned that it was unfair that Mexican nationals would 
be processed through US-VISIT while citizens of visa waiver 
countries were not. Now that the citizens of visa waiver 
countries will be subject to this requirement, will Mexican 
citizens holding border crossing cards be subject to it as 
well?
    Secretary Powell. I need to yield to my colleague, but my 
judgment is, no, if they are coming in with the border crossing 
cards for a limited period of time, 72 or 96 hours--I forget 
which it is--and a limited geographic destination within the 
United States, I didn't think we were planning to subject them 
to US-VISIT. But we can get that for the record.
    [See Appendix for response from Secretary Powell.]
    Secretary Ridge. Yes, we will. Particularly with regard--
we're going to have to make some distinctions with regard to 
the land ports of entry in order to comply with the 
congressional mandate to set up US-VISIT at the 50 largest land 
ports of entry, obviously, Canada and Mexico; and there will be 
some distinctions in those categories. I think that is one of 
them that I would like to get back to you in that regard.
    Mr. Gallegly. I'd appreciate that you would get back.
    I think, as we all know, the issue particularly on the 
southern border, as a California resident, it is not limited to 
California. But I held a hearing, as I chair the Subcommittee 
on Antiterrorism and Nonproliferation, a Subcommittee hearing--
field hearing in California recently; and we had a former U.S. 
Attorney testify before the Committee that had real concerns 
about this very issue. He said, you know, if we have 
uneducated, unsophisticated, and relatively poor folks without 
any resources that can pretty well find a way to get across 
that border, what does that say about those that are 
sophisticated, well educated and well funded? And it is a major 
concern of mine. I'd just like to get your response to that.
    Secretary Ridge. And we will get back to you certainly in 
writing.
    But I think you are aware of the fact that, through our 
offices in Mexico, now when they get that laser card, they do 
give us their photograph, they do give us a fingerprint. We do 
have readers, and we can refer them to secondary inspection 
with readers to confirm their identity. But I would like to get 
back and further amplify that in response to you in writing.
    Mr. Gallegly. When you do that I'd appreciate if you would 
go a little bit beyond that and talk about how many are 
actually--these cards are fed through a reader and how many are 
just waved through as a result of a long line. That's a major 
concern.
    Secretary Ridge. All right. All right.
    Mr. Gallegly. And, Tom, perhaps you can answer this 
question as well: The visa waiver countries are also required 
to report all stolen passports, but there is some indication 
that this requirement is not consistently adhered to. What 
plans are there to increase compliance with this requirement?
    Secretary Powell. Let me take that, sir, and look into it. 
I don't have the facts. We will get an answer for you for the 
record as to which countries we believe have been deficient, 
and what we're doing about it.
    [See Appendix for response from Secretary Powell.]
    Secretary Ridge. We are working with Secretary Powell--
we're going back to take a look at, since the invention of the 
Department of Homeland Security, take a look at the number of 
reported visas that have been stolen.
    Historically, the process is a country reports to the 
Secretary of State. Since the Department has been up, the 
Secretary of State sends that information to us.
    I know the Chairman asked about a series of stolen French 
passports. You will be happy to know, Mr. Chairman, that that 
information was related to the Secretary of State, and we had 
it, and we denied entry a couple of days ago to somebody trying 
to use one of those stolen passports.
    Mr. Gallegly. Thank you very much, Secretary Powell and 
Secretary Ridge. I look forward to your response.
    Thank you, Mr. Chairman. I yield back.
    Chairman Sensenbrenner. The gentlewoman from California, 
Mrs. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman and Members.
    To our very special guests here today, with all due respect 
for the difficulty that you are confronted with in trying to 
make our homeland more secure, I must tell you that I do not 
support the visa waiver program at all. I think it's 
discriminatory, and I think it was brought out here today. You 
have no Caribbean countries, you have no African countries in 
this program, and so I don't know what the criteria is. I don't 
know how you rate all of the other countries; and when you talk 
about the refusal or the turndown rate, I just have no sense of 
that. So I don't support the visa waiver program at all, 
starting out, because I think it is discriminatory.
    But, more than that, we just heard--we are listening to the 

9/11 Commission where people are talking about connecting the 
dots, missed opportunities, all of that, and wishing we had 
done something more, wishing we had paid attention.
    I think we should be at zero tolerance level, and we should 
be talking about what has been alluded here today about merged 
databases. As it was said, one of our Members here said today 
that some of those who are suspected or accused or we know now 
have been involved in terrorist acts or potential terrorist 
acts came from these visa waiver countries.
    So I don't think that I would expect that you would come in 
here and talk about how much money you need. You need to talk 
about how we really do have a comprehensive system by which we 
prevent people from coming in here, not just people with 
criminal records but people that we just don't know who they 
are.
    So I guess I'm going to ask you, when do you envision a 
very tough system, that you do not allow anybody to get in here 
that we don't know who they are, no matter where they come 
from?
    Secretary Powell. That is our immediate goal now in the 
actions we are taking with respect to moving toward machine-
readable passports with biometric identification, with respect 
to the US-VISIT program participation. I think we are trying to 
do that now to the best of our ability, not only who comes into 
our country, what are they coming in for and when do they 
leave? So I think we are moving in that direction now, Ms. 
Waters.
    I'll yield to Secretary Ridge as to when we might have a 
perfect system, if ever.
    Secretary Ridge. First of all, Congresswoman, with regard 
to your concerns about the visa waiver program, it began as a 
pilot program for all the reasons that have been discussed in 
both the testimony and the question and answer period. I think 
Congress established it as a permanent part of our approach to 
the balance to the rest of the world community, and the 
requirements to the eligibility requirements are not set by the 
Department of State or by the Department of Homeland Security, 
they're set by Congress. So if there is to be any modification 
on a visa waiver program, obviously officials in the executive 
branch, whatever Congress would will at that point, we would 
certainly be obliged to enforce.
    [12:00 noon.]
    Secondly, one of the real challenges--and I have a 
particular appreciation for this and the challenge that 
Secretary Powell's consular affairs officers have--the United 
States is among several countries that has expended the 
resources, and there are databases which are very familiar to 
us and we have access to, but there are a lot of countries 
around the rest of the world where the consular official making 
a decision as to whether or not an individual should be granted 
a visa has relatively little information. And it is just a 
simple fact of life, that is the case. They have to make a 
judgment call. On balance, I think they make pretty good calls 
on the limited information they have. And again, as the 
Secretary has pointed out to you, you are absolutely right. We 
want to know as much as we possibly can about who is entering, 
why are they entering, and if you entered for legitimate 
purposes and your visa has expired, have you gone back home. 
That is the goal we all share and we are working together to 
achieve that.
    Ms. Waters. I appreciate that, gentlemen. And I suspect 
that we will see you again when you come in to get a waiver 
from one of these visa waiver program countries that you don't 
want to limit their opportunities to get in here and not 
inconvenience them, but I am going to tell you that I am not 
going to support any of it. I am not going to support any 
waivers of any kind.
    And so I just want you to know I don't want to be in a 
position of making excuses a year or two from now when 
something bad happens. We have seen enough and 9/11 should be 
teaching us a good lesson, and the Commission should be 
unfolding enough information for all of us to be very, very 
concerned about, and we should be at zero tolerance for 
everything.
    Chairman Sensenbrenner. The gentlewoman's time has expired 
and the hour of noon has arrived. And pursuant to the Chair's 
prior announcement and the commitment that the two Secretaries 
gave to us when they agreed to come and testify, we will 
adjourn the Committee at this time. We deeply appreciate both 
of you presenting yourselves as targets of opportunity.
    I would like to personally ask you to be able to respond in 
writing to questions from Members of the Committee that did not 
have the time to ask questions today due to our time 
constraints. The Committee stands adjourned.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Prepared Statement of the Honorable Sam Farr, a Representative in 
Congress from the State of California, and the Honorable Mark Foley, a 
          Representative in Congress from the State of Florida
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas
    The visa waiver program (VWP) allows nationals from 27 countries to 
enter the United States as nonimmigrant visitors for business or 
pleasure without first obtaining a visa from a U.S. consulate office. 
This facilitates international travel and commerce and eases consular 
office workloads. Last year, approximately 13.5 million visitors 
entered the United States under this program. The negative side of the 
program is that it permits people to enter the United States without 
going through the security clearances that are involved in obtaining a 
visa. According to the Department of Justice, a terrorist associated 
with the World Trade Center bombing in 1993 entered the United States 
as a VWP applicant using a photo-substituted Swedish passport. More 
recently, the ``Shoe Bomber'' Richard Reid was coming to the United 
States to enter the country under the VWP.
    The Enhanced Border Security and Visa Entry Reform Act of 2002 
mandated that by October 26, 2004, the government of each VWP country 
must certify that it has established a program to issue machine-
readable passports that are tamper-resistant and incorporate a 
biometric identifier. This only would apply to new passports that are 
issued after the October 26, 2004, deadline.
    While all 27 VWP countries have a program in place to develop a 
machine readable, biometric passport, few of the countries will be in a 
position to start issuing them by the deadline. The required technical 
and interoperability standards have not yet been completed by the 
International Civil Aviation Organization (ICAO). Preliminary ICAO 
standards were released in May 2003, but they failed to address some 
key issues, including interoperable chip security standards and 
interoperable reader standards. Also, ICAO's decision to make facial 
recognition technology the standard passport biometric was not made 
until May 2003, leaving VWP countries only 17 months to move a 
biometric passport from design to production, a process that normally 
takes years. It is apparent that very few VWP countries will be able to 
meet the deadline for incorporating the biometric identifiers.
    If the deadline is not extended, the participating countries that 
fail to meet it will lose the privilege of participating in the 
program, and the nationals of those countries will need visas to enter 
the United States. The State Department has estimated that this would 
result in the need to process an additional 5 million visas. 
Apparently, the State Department intends to take personnel away from 
other activities and assign them to the task of processing the extra 5 
million visa applications. In an attempt to avoid these consequences, 
the State Department and the Department of Homeland Security have 
circulated draft legislation that would extend the deadline from 
October 26, 2004, to November 30, 2006.
    I am concerned about the effect that even a temporary disruption of 
the visa waiver program could have on the international tourist 
industry. In the year 2000, the State of Texas alone received revenue 
from the international tourist industry that totaled $3,751.3 million. 
This included $410.6 million on public transportation, $111.1 million 
on automobile transportation, $1,029.2 million on lodging, $731.4 
million on food services, $320.2 million on entertainment and 
recreation, and $1,148.9 million in general trade. A major reduction in 
such revenue would have an adverse impact on the economy of our 
country. I also am concerned about the fact that the technology for the 
biometric feature of the new passport is a work in progress. Such new 
technology needs to be fully developed and tested before it is put into 
use. I am afraid that rushing this project could result in passports 
that have unreliable biometric identifiers, which would not provide the 
expected increase in our security. Consequently, I will support 
legislation to extend the deadline for this requirement.
    I would like some assurance, however, that the VWP countries will 
be able to comply with the standards if the contemplated 2-year 
extension is granted. I also would like assurance that steps will be 
taken to ensure that our security is not compromised by the delay in 
implementing the new standards. Thank you.
                               __________
Prepared Statement of the Honorable Elton Gallegly, a Representative in 
                 Congress From the State of California
    Thank you Mr. Chairman for holding this very important hearing.
    I introduced legislation in the 107th Congress that included a 
requirement that all visa waiver countries redesign their passports to 
be machine-readable and contain biometric identifiers as a condition of 
their continued participation in the visa waiver program. My bill was 
the model for such requirements included in the ``Enhanced Border 
Security and Visa Entry Reform Act of 2002,'' that are now the subject 
of this hearing.
    Since 2002, I have awaited the implementation of this improvement. 
Biometric identifiers in passports will verify the identity of the 
passport holder, ensure that another person cannot alter the passport 
for his use, and enable authorities to track entries and exits. It is 
particularly important that passports from visa waiver countries 
include these safeguards because their holders are not screened through 
the visa process in our consular offices abroad.
    I am disturbed that the countries currently enrolled in the visa 
waiver program will not meet the deadline for including biometric 
identifiers in their passports. I am particularly concerned about how 
the failure to meet this deadline will impact the national security of 
the United States.
    Our visa waiver partners should treat security improvements with 
the utmost urgency.
    I am, however, heartened to hear that the President has decided to 
process passport holders from visa waiver countries through the US-
VISIT system. Through this processing, passport holders from visa 
waiver countries will be photographed and fingerprinted, and will also 
be required to answer questions about their stay. US-VISIT is an 
important tool in the United States's border control arsenal, not only 
to verify identity and track entries and exits, but to check for ties 
to terrorist and criminal pasts. Using fingerprints collected by US-
VISIT, authorities are able to utilize several databases to 
biometrically search for criminal and terrorist ties.
    I am concerned by reports that over 9,000 blank French passports 
were stolen in February of this year and question the wisdom of 
exempting any population from what may be our only opportunity to check 
the criminal and terrorist pasts of these people. After all, Zacarias 
Moussaoui, the accused 20th hijacker of 9/11 entered the country with a 
French passport as a visa waiver traveler. For these reasons, I hope 
that this is not a stopgap measure until biometric requirements are 
satisfied and instead that passport holders from visa waiver countries 
continue to be processed thorough US-VISIT in perpetuity.
    I look forward to the testimony of our distinguished guests. Thank 
you, Mr. Chairman. I yield back my time.
                               __________
  Prepared Statement of the Honorable Steve King, a Representative in 
                    Congress From the State of Iowa
    Thank you, Chairman Sensenbrenner, for holding this hearing today. 
The issues we will discuss today are vitally important to our national 
security and protection of our homeland. Secure passports are essential 
in the war on terror.
    I would like to bring the attention of the Committee and our 
witnesses to another issue related to passports--namely the western 
hemisphere passport exception. Currently, a United States citizen can 
re-enter the United States without a passport if he or she is coming 
from any country in the western hemisphere, with the exception of Cuba. 
All that the person needs show is a drivers' license and birth 
certificate. Unfortunately, neither of these documents is as secure as 
a passport and forgery is a serious problem. I believe we should 
require a passport for re-entry of a U.S. citizen to the United States 
in order to fight terrorism. The Immigration Subcommittee has held a 
hearing on the subject, and I am anxiously awaiting progress on the 
issue.
    Thank you, Mr. Chairman.
   Prepared Statement of the Chamber of Commerce of the United States
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Prepared Statement of the Travel Business Roundtable
                                overview
    The Travel Business Roundtable (TBR) would like to thank Chairman 
Sensenbrenner and Ranking Member Conyers for holding this important 
hearing, and is pleased to have the opportunity to submit a statement 
for the record regarding the Committee's consideration of an extension 
of the October 26, 2004 statutory deadline for requiring Visa Waiver 
Program (VWP) travelers to present biometric passports upon entry to 
the United States.
    TBR is a CEO-based organization that represents the diverse U.S. 
travel and tourism industry, with more than 85 member corporations, 
associations and labor groups. The travel and tourism industry is an 
engine for economic development and job creation. Some 17 million 
Americans are employed in travel and tourism-related jobs with an 
annual payroll of $157 billion. Travel and tourism is the first, second 
or third largest industry in 29 states and the District of Columbia. In 
the last decade, travel and tourism has emerged as America's second 
largest services export and the third largest retail sales industry. 
Our industry is in 50 states, 435 Congressional districts and every 
city in the United States.
    TBR vigorously supports the efforts of Congress, the Department of 
Homeland Security, the State Department and the Bush Administration to 
establish and implement laws and regulations that will protect our 
borders, our citizens and our visitors. However, it is vital that the 
agencies incrementally implementing these programs consider their 
collective impact on the traveling public. Being ever mindful of DHS 
Secretary Tom Ridge's admonition about the need to create the proper 
balance between protecting our homeland and promoting free and open 
commerce, TBR's goal is to ensure that the paramount objective of 
protecting our nation's security is pursued in a manner that is 
effective, coherent and does not unnecessarily compromise our economic 
vitality.
                   the biometric passport requirement
    The rapidly approaching October 26, 2004 deadline requiring 
travelers from Visa Waiver Program countries to present passports 
containing biometric identifiers was established in the Enhanced Border 
Security and Visa Entry Reform Act of 2002, and as a statutory 
requirement, can only be modified by congressional action. While TBR 
strongly supports efforts by Congress and the Administration to 
implement this program as an additional means of strengthening security 
at our nation's borders, we are concerned that doing so without the 
necessary technological resources could compromise that security and 
cause harm to the travel and tourism industry, our bilateral 
relationships and the nation's image around the world.
    VWP countries are among our closest allies, and in 2002, 
represented 68 percent of all overseas visitors to the U.S., spending 
approximately $38 billion. Without a delay, VWP travelers will be 
required to apply for visas, thus increasing FY05 visa applications to 
almost double the FY03 demand. As a consequence, these visitors will 
most likely be subjected to the additional scrutiny and hassle of the 
visa process, which has already experienced heavy backlogs and turned 
away legitimate travelers.
    On January 28, 2004, Assistant Secretary of State for Consular 
Affairs Maura Harty testified before the House Select Homeland Security 
Subcommittee on Infrastructure and Border Security that VWP countries 
were given only 17 months notice to comply with the biometrics 
requirement--a process that normally takes years for a nation to 
research, develop and implement. Reports from the United Kingdom and 
Japan, among many other affected countries, show that they will be 
unable to technologically comply with this requirement until late 2005 
at the earliest. Moreover, the few manufacturers that produce the 
technology these countries need to fulfill the biometrics requirement 
have indicated that they cannot meet the demand in such a short 
timeframe, and given the time constraints, would be unable to vouch for 
the security of the biometric information contained in the passports. 
For these reasons, the travel and tourism industry feels a great sense 
of urgency to delay the deadline. It is noteworthy that even the United 
States, which is not required to comply with this requirement, will not 
be prepared to issue biometric passports until 2005. This suggests that 
we are asking our allies to conform to deadlines that we ourselves 
cannot meet.
    We are heartened that Administration officials understand the 
importance of addressing this issue. In a March 17 letter that Homeland 
Security Secretary Tom Ridge and Secretary of State Colin Powell sent 
to Chairman Sensenbrenner, they requested a two-year extension of the 
biometrics deadline for VWP citizens. Secretaries Ridge and Powell 
voiced their own fears that if the deadline is not extended, 
``travelers will vote with their feet and go elsewhere.''
    TBR shares this concern and believes that it is crucial that 
Congress implement the delay in an expeditious manner to ensure that 
the affected countries can plan accordingly and so that potential 
travelers from those countries have sufficient notice of what will be 
expected of them as they make their plans to travel to the U.S. We hope 
to work closely with Congress and the Administration to quickly 
establish a workable deadline for VWP countries and an effective means 
of communicating the changes to the countries and their citizens.
    It is impossible to stress enough how important international 
visitors are to the health of our industry as well as the overall U.S. 
economy. Every 1 percent drop in international arrivals to the U.S. 
accounts for the loss of 172,000 jobs and $1.2 billion in tax revenue. 
From 2001 to 2002, international travelers to the United States dropped 
from 44.9 million to 41.9 million. International visitor spending in 
the U.S. over that time decreased from $71.9 billion to $66.5 billion. 
And our travel trade surplus of $26 billion in 1996 plummeted to $5.5 
billion in 2002. This continued downward trend of international visitor 
patterns has caused federal, state and local government travel-related 
tax receipts to decline from $95.5 billion in 2001 to $93.2 billion in 
2002. Moreover, U.S. travel and tourism industry payrolls have dwindled 
from $160.3 billion in 2001 to $157 billion in 2002, and industry job 
growth remained stagnant at 17 million workers. The United States 
cannot allow this downward trend to continue.
                               conclusion
    To further quote from the letter to Chairman Sensenbrenner from 
Secretaries Powell and Ridge regarding the impracticality of the 
upcoming deadline: ``Clearly we need to address this problem. We 
believe there are good reasons to extend the October 26, 2004 deadline. 
. . . A biometric deadline extension will enable our allies to develop 
viable programs and resolve the scientific problems to produce the more 
secure biometrically enabled documents that the original legislation 
mandated.'' We could not agree more.
    In considering the need for an extension and the necessary timeline 
to ensure that VWP countries are able to comply with the biometric 
passport requirement, we believe that Congress and the Administration 
need to explore a number of important questions, namely: What have VWP 
countries told the Committee about their ability to comply with the 
requirement? Based on their responses, is the two-year extension 
suggested by Secretaries Powell and Ridge an accurate reflection of the 
necessary time involved in achieving a workable standard? Given that 
there are a finite number of biometric identifier manufacturers, and 
questions have been raised about the durability and security of the 
identifiers, will they be able to meet the worldwide demand with a 
reliable product? And perhaps most importantly, how can the United 
States ensure that VWP countries and their citizens have the most 
reliable information possible about what is required of them, and when?
    TBR stands ready to work with Congress, the State Department, the 
Department of Homeland Security and other relevant federal entities to 
ensure that those who wish to do harm to our nation are prevented from 
traveling to the U.S., while those who seek to visit our country for 
legitimate reasons are treated respectfully and are admitted in an 
efficient manner. We appreciate the Committee's attention to these 
pressing matters and offer our assistance in any way.

                               MEMBERSHIP

Jonathan M. Tisch
Chairman, Travel Business Roundtable
Chairman & CEO, Loews Hotels

Affinia Hospitality
Air Transport Association
American Airlines
American Express Company
American Gaming Association
American Hotel & Lodging Association
American Resort Development Association
American Society of Association Executives
Amtrak
Asian American Hotel Owners Association
ASSA ABLOY Hospitality
Association of Corporate Travel Executives
Business Travel News
Capital Management Enterprises
Carey International
Carlson Hospitality Worldwide
Cendant Corporation
Choice Hotels International
The Coca-Cola Company
Commonwealth of Puerto Rico
Delaware North Companies Inc.
Detroit Metro Convention and Visitors Bureau
Diners Club International
Fairmont Hotels & Resorts
FelCor Lodging Trust
Four Seasons Regent Hotels & Resorts
Greater Boston Convention & Visitors Bureau
Greater Fort Lauderdale Convention & Visitors Bureau
Greater Miami Convention & Visitors Bureau
Gucci
The Hertz Corporation
Hilton Hotels Corporation
Hotel Employees and Restaurant Employees International Union
HRW Holdings, LLC
Hyatt Hotels Corporation
Inc Magazine
InterActiveCorp
InterContinental Hotels Group
International Association of Convention and Visitors Bureaus
International Council of Shopping Centers
International Franchise Association
Interstate Hotels & Resorts
Interval International
JetBlue Airways Corporation
Las Vegas Convention & Visitors Authority
Loews Hotels
LA INC, The Convention and Visitors Bureau
Lufthansa Systems North America
Mandalay Resort Group
Marriott International Inc.
Maryland Office of Tourism Development
McDermott, Will & Emery
The Mills Corporation
Nashville Convention and Visitors Bureau
National Basketball Association
National Business Travel Association
National Football League
National Hockey League
National Restaurant Association
Nederlander Producing Company of America
New York University
Northstar Travel Media, LLC
NYC & Company
Omega World Travel
Pegasus Solutions, Inc.
Philadelphia Convention and Visitors Bureau
PricewaterhouseCoopers, LLP
Smith Travel Research
Starwood Hotels & Resorts
Strategic Hotel Capital Inc.
Taubman Centers, Inc.
Tishman Construction Co.
United Airlines
Universal Parks & Resorts
United States Chamber of Commerce
United States Conference of Mayors
USA Today
Vail Resorts, Inc.
Virginia Tourism Corporation
Walt Disney Parks and Resorts
Washington D.C. Convention and Tourism Corporation
Waterford Group, LLC
WH Smith USA
World Travel and Tourism Council
Wyndham International
Zagat Survey, LLC
                               __________
                Prepared Statement of J. Clark Robinson
    As president of the International Association of Amusement Parks 
and Attractions, and on behalf the board of directors and our general 
membership, I appreciate the opportunity to submit testimony for the 
hearing record on this very important subject.
                              introduction
    Founded in 1918, the International Association of Amusement Parks 
and Attractions (IAAPA) is the largest international trade association 
for permanently situated parks and attractions worldwide. Headquartered 
in Alexandria, VA, IAAPA represents approximately 5,000 member 
companies from more than 85 countries, including virtually all multi-
park companies such as Disney, Universal, Busch Entertainment, 
Paramount, Cedar Fair, and Six Flags. Our membership includes 
amusement/theme parks, waterparks, amusement manufacturers and 
suppliers, family entertainment centers, arcades, zoos, aquariums, 
museums, and miniature golf venues.
    According to Amusement Business magazine and other industry 
analysts, America's 600-plus parks and attractions hosted approximately 
322 million visitors in 2003, generating more than $10 billion in 
revenue. An annual compilation of the world's ``Most Visited Amusement/
Theme Parks'' indicated that the United States had 16 of the top 25 
most attended parks globally during the past year. American amusement 
facilities take great pride in their commitment to providing quality 
family entertainment to visitors from our own country and countries 
around the world.
                    the need for safe, open borders
    The amusement industry supports enhanced border security measures, 
understanding that seamlessly safe travel helps to bolster consumer 
confidence in visiting our parks and attractions. However, the industry 
is concerned about the implementation schedule of security measures and 
the adverse impact it might have on travel by foreign visitors.
    Since 9/11, the travel and tourism industry has seen significant 
decreases in international travel to the United States. Over a two-year 
period following September 11, 2001, international travel to the U.S. 
declined twenty percent, resulting in a loss of $15 billion in visitor 
spending. More than 300,000 jobs in the travel industry were lost as a 
product of the decrease in international travel. There are preliminary 
indications that interest in tourist travel to the United States is 
recovering slowly towards pre-9/11 levels. But this progress could be 
extinguished if perceived or actual impediments to inbound 
international travel exist.
    While the need to enhance physical safety is paramount, the United 
States must also be vigilant in ensuring enhanced economic security 
during that process. As a result, the amusement industry, in 
conjunction with the entire United States travel industry, supports an 
extension of the congressionally mandated deadline of October 26, 2004 
for Visa Waiver Program (VWP) countries to begin issuance of biometric 
passports to their citizens. We concur with the recommendations of 
Secretary of State Powell and Secretary of Homeland Security Ridge that 
the deadline be extended until December 2006.
           amusement industry supports biometric passports, 
                            phase-in needed
    Both the United States and the international theme park community 
support implementation of a biometric passport program for Visa Waiver 
countries. Biometric identification will undoubtedly enhance security 
by allowing more vigorous screening of visitors. The further 
development and issuance of machine-readable, tamper-resistant, 
biometric passports will reduce the number of fraudulent and suspicious 
passports used to gain illegal entry into this country.
    While illegal entry must be prohibited, legitimate travel into the 
United States must be permitted to continue without significant 
disruption. The State Department's Bureau of Consular Affairs has 
indicated that VWP governments will be unable to meet the legislatively 
mandated deadline to issue biometric passports. It is currently 
believed that at best, only three of the twenty-seven Visa Waiver 
countries will be able to meet this deadline, and that none of the 
larger countries (United Kingdom, Japan, Germany, France, Italy or 
Spain) will be able to issue biometric passports by October 26, 2004. 
Officials have indicated that these VWP governments will not be capable 
of producing biometric passports until late 2005 or 2006.
    Visa Waiver travelers with non-biometric passports issued on or 
after October 26, 2004 will be required to obtain a visa for travel to 
the United States. As governments in Visa Waiver countries will be 
unable to issue passports with biometric identifiers, the demand for 
non-immigrant visas for travel to the United States will overload the 
processing abilities of U.S. consulates overseas. The State Department 
has indicated that the demand for non-immigrant visas would at least 
double, leaving them unable to process requests in a timely manner.
    We fear that these requirements will serve as a disincentive for 
tourist travel to the United States. The biometric passport deadline 
for Visa Waiver countries will create an actual barrier for some 
international travelers and a perceived barrier for others. Fewer 
international visitors to the U.S. will result in less spending and job 
loss in the amusement industry across the country.
    We support the Administration's request to extend the current 
October 26, 2004 deadline for biometric passports. Further, we urge the 
committee to consider legislation providing Visa Waiver Program 
countries the necessary time to begin issuing biometric passports to 
their citizens. Extension of this deadline will give VWP governments 
the opportunity to complete development of these more secure documents 
while maintaining the flow of legitimate tourist travel to the United 
States.
                               conclusion
    As U.S. parks and attractions are just now beginning to recover 
from the events of the last two years, another barrier to inbound 
travel would be detrimental to the industry. In 2002, Visa Waiver 
travelers spent approximately $38 billion in the United States. Over 10 
million international visitors traveled to the United States from VWP 
countries last year. Extending the biometric passport deadline for Visa 
Waiver travelers by at least one year would allow the seamless flow of 
legitimate travel into the United States to continue, while providing 
VWP governments with the opportunity to successfully meet and comply 
with requirements mandated by the Border Security Act. Homeland 
security must be defined as more than protection of our borders. The 
implementation of security measures must account for the economic 
health of the nation as well.
    I thank you again for the opportunity to submit this testimony for 
the official record.
                               __________
  Prepared Statement of The American Chamber of Commerce in Singapore
                              introduction
    The American Chamber of Commerce in Singapore (AmCham) represents 
the interests of the 1,500 U.S. companies operating in the country, and 
more than 18,000 Americans living and working in Singapore.
    In light of the current global security situation, AmCham and the 
American business community in Singapore support the strengthening of 
U.S. immigration and visa policies to improve national security and to 
safeguard the interests of business, educational, and leisure travelers 
visiting the United States and Southeast Asia. However, this additional 
attention to security must be balanced with the proper resources to 
ensure that delays and other problems are minimized.
                     ensuring the proper resources
    While the American Embassy in Singapore has done an excellent job 
to ensure that 90% of all visa applications are processed within 10 
working days, further attention needs to be paid to the overall 
shortage of consular resources in Southeast Asia--i.e., personnel, 
technology, and Embassy space--in order to meet the growing demands 
placed on Consular staff for increased security checks, interviews, 
etc.
    Of AmCham Singapore's 1,500 individual and 700 corporate members, 
80-90% of these have regional responsibilities, which means that they 
and their employees often travel within Asia and to the United States 
for business meetings, training, and related purposes. Although 
Singapore is a visa waiver country, which means that its nationals do 
not require visas to go to the United States for short business or 
leisure trips, many AmCham member companies employee citizens of non-
visa waiver countries such as Malaysia and Indonesia.
    It is in these cases of non-visa waiver countries that AmCham 
members have experienced significant difficulties obtaining visas for 
(as an example) their Managing Directors or other senior executives 
(who are Malaysians working in Singapore) to visit their U.S. corporate 
offices for meetings or training. These executives have reported that 
the visa approval process was either too slow, or by the time it had 
been approved, it was too late to travel to the United States.
    Many of Amcham's member companies reported severe difficulties in 
2002 and early 2003 with obtaining legitimate visas for Malaysians, 
Indonesians and even Singaporeans that were necessary for their 
operations. Recent changes in operating procedures have ameliorated 
this situation somewhat, but some cases are still inexplicably delayed. 
One of the most bothersome aspects of the problem for businesses is the 
total lack of predictability--our member companies do not know whether 
their executives will get their visas within some foreseeable span of 
time, or if they will be indefinitely delayed, without a refusal but 
with no response. In the latter cases, U.S. embassies in the region 
have been unable to give us any information or status reports about the 
processing of the visa, saying simply that they are being processed in 
Washington. The process for business visas should be made more 
transparent, predictable and responsive to the legitimate needs of 
American businesses. Government agencies involved in reviewing the 
visas in Washington need to apply sufficient resources to this task, so 
that decisions are made on a timely basis. When there are unavoidable 
delays, adequate information should be made available to the companies 
and the individuals about the status of the case.
    An example of this involves one American technology company in 
Singapore, who reported that its Indonesian-born executive that had 
been living and working in the United States, and who has a Green Card, 
went back to Indonesia to get married. However, when he tried to return 
to the United States, U.S. Immigration officials did not allow him to 
do so, and did not provide clear reasons for their decision. Even 
though his employer vouched for his credibility and he did have U.S. 
permanent residency, he was not allowed back into the United States.
    With implementation of The U.S.-Singapore Free Trade Agreement, and 
discussions on a U.S.-Thailand FTA and other bilateral trade 
frameworks, the United States will begin to see increasing business 
visits by foreign national executives who are employed by American 
companies in Southeast Asia. The Departments of State and Homeland 
Security must ensure that adequate resources and processes are in place 
to meet this growing flow of international visitors. Their inability to 
do so will inhibit business transactions between the United States and 
its Asian partners, and negatively impact on bilateral trade and 
investment with the U.S., which are key to helping the American economy 
to recover and to continue growing in the future.
               us-visit program & biometric requirements
    AmCham Singapore supports the US-VISIT Program as a way to further 
enhance the United States' national security while helping to process 
more efficiently visitors (particularly repeat travelers) to the United 
States. We further agree with the use of biometrics (e.g., fingerprint 
scans and digtal photos) at entry points to the United States and in 
passports of citizens of Visa Waiver Program (VWP) nations, which will 
better help to ensure the validity of travelers' identities and to 
protect against fraud and abuse.
    Effective September 30, 2004, the US-VISIT Program will require all 
visitors to the United States to enroll upon entry into the United 
States. This includes the 13 million travelers under the VWP who visit 
the U.S. annually. To ensure that US-VISIT can be managed effectively 
on a nationwide basis and to accommodate the additional (initial) 
processing time required to enter all visitors into the system, it is 
critical that Congress provide Department of Homeland Security and 
Department of State with the proper resources to enable them to conduct 
this program.
    A second area of concern is that, for countries such as Singapore 
who are members of the VWP and whose citizens would be required to have 
biometric passports for entry into the United States, most of the 27 
VWP members would not be able to issue machine-readable passports 
containing biometric information of their citizens prior to the current 
deadline of October 26, 2004. As the current law indicates, citizens of 
countries not complying with these regulations by this date would need 
to go through the formal U.S. visa application process.
    This would result in an estimated 5 million visa applications for 
consular offices worldwide, and Department of State would need to add 
hundreds of new officers to help meet this demand. Further, it is 
likely that some countries might retaliate and require American 
citizens visiting their countries to also implement these features into 
U.S. passports. It would seem unlikely that the United States could do 
so in the proposed timeframe.
    The result would not only be a continued decrease in Singaporean 
and other business travelers to the United States, but (and perhaps 
more importantly) the high level of interest from Singapore companies 
in investing in the United States and purchasing American products 
would be tempered because of the difficulties in traveling there for 
business.
    The United States has entered into a free trade agreement (FTA) 
with Singapore in late 2003, and is currently in discussions with 
Australia and other countries, who are also members of the VWP. If the 
October 26 deadline is not extended, and businesspeople from Singapore 
and other VWP nations need to go through the normal visa application 
channels, this will negatively impact on potential investors and 
business travelers to the U.S. These individuals would be more likely 
to evaluate business opportunities within Asia, Australia, or European 
nations which have less stringent requirements for non-immigrant 
visitors.
    AmCham has already seen a reverse in the steady upward trend of 
Singaporean students wanting to study in the United States because of 
existing visa processing delays. Many of these students have foregone 
U.S. colleges and universities in favor of Australian and United 
Kingdom schools, due to those nations' easier visa processing 
procedures.
    If the United States does not extend its deadline for VWP members 
to issue biometrically-enabled passports to their citizens, this will 
also hurt America's tourism industry, as more people choose to visit 
other nations, or to remain in Asia where it will be easier for them to 
travel.
                              conclusions
    AmCham Singapore strongly supports strengthening of visa 
application procedures and policies to help ensure the United States' 
national security interests, but feels the current system and US-VISIT 
program need to be re-examined to ensure that America's long-term 
business relationships and economic opportunities are not nullified as 
a result of well-meaning measures which are not carefully implemented.
    We also agree with DHS and State Department's request to extend the 
deadline for VMP nations to comply with the US-VISIT requirements on 
machine-readable passports and biometric information, and ask Congress 
to pass legislation that will meet this request.
          Letter from the National Business Travel Association
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Letter from the Travel Industry Association of America
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Responses from 21 Ambassadors
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Letter from Jonathan Faull, European Commission
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Responses to Questions posed during the hearing from 
                       the Honorable Colin Powell
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Responses to Post-Hearing Questions from the Honorable Colin Powell
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Responses to Post-Hearing Questions from the Honorable Tom Ridge
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
